<html>
<title> - POLICIES AND PRIORITIES AT THE U.S. DEPARTMENT OF LABOR</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
        POLICIES AND PRIORITIES AT THE U.S. DEPARTMENT OF LABOR

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 16, 2011

                               __________

                            Serial No. 112-6

                               __________

  Printed for the use of the Committee on Education and the Workforce



                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
64-533                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f7908798b7948284839f929b87d994989ad9">[email&#160;protected]</a>  

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California            Lynn C. Woolsey, California
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Carolyn McCarthy, New York
Tim Walberg, Michigan                John F. Tierney, Massachusetts
Scott DesJarlais, Tennessee          Dennis J. Kucinich, Ohio
Richard L. Hanna, New York           David Wu, Oregon
Todd Rokita, Indiana                 Rush D. Holt, New Jersey
Larry Bucshon, Indiana               Susan A. Davis, California
Trey Gowdy, South Carolina           Raul M. Grijalva, Arizona
Lou Barletta, Pennsylvania           Timothy H. Bishop, New York
Kristi L. Noem, South Dakota         David Loebsack, Iowa
Martha Roby, Alabama                 Mazie K. Hirono, Hawaii
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania
[Vacant]

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 16, 2011................................     1

Statement of Members:
    Barletta, Hon. Lou, a Representative in Congress from the 
      State of Pennsylvania, question submitted for the record...    14
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
        Questions submitted for the record.......................     8
    McCarthy, Hon. Carolyn, a Representative in Congress from the 
      State of New York, questions submitted for the record......    14
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6
    Rokita, Hon. Todd, a Representative in Congress from the 
      State of Indiana, question submitted for the record........    14

Statement of Witnesses:
    Solis, Hon. Hilda L., Secretary, U.S. Department of Labor....    15
        Prepared statement of....................................    19
        Responses to questions submitted and additional materials 
          furnished:
            Responses to questions...............................    71
            ``Project Labor Agreements,'' 2007, Internet address 
              to.................................................   111
            ``Labor Analysis and Report on Feasibility for a 
              Project Labor Agreement on the I-287/Cross 
              Westchester Expressway Project,'' June 17, 1999....   111
            ``Labor Analysis and Report on Feasibility for a 
              Project Labor Agreement Covering Construction and 
              Renovation of the Jacob K. Javits Convention 
              Center,'' April 2007...............................   152
            ``Workforce Investment Act Formula Obligations 
              Program Year 2009,'' July 1, 2009-June 30, 2010....   183
            ``Workforce Investment Act Formula Spending Program 
              Year 2009,'' July 1, 2009-June 30, 2010............   193


                     POLICIES AND PRIORITIES AT THE
                        U.S. DEPARTMENT OF LABOR

                              ----------                              


                      Wednesday, February 16, 2011

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:03 a.m., in room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Petri, Biggert, Platts, 
Foxx, Roe, Thompson, Walberg, DesJarlais, Rokita, Bucshon, 
Noem, Ross, Kelly, Miller, Kildee, Payne, Andrews, Woolsey, 
Hinojosa, McCarthy, Tierney, Holt, and Davis.
    Staff Present: James Bergeron, Director of Education and 
Human Services Policy; Kirk Boyle, General Counsel; Casey 
Buboltz, Coalitions and Member Services Coordinator; Ed Gilroy, 
Director of Workforce Policy; Marvin Kaplan, Professional Staff 
Member; Barrett Karr, Staff Director; Ryan Kearney, Legislative 
Assistant; Brian Newell, Press Secretary; Molly McLaughlin 
Salmi, Deputy Director of Workforce Policy; Ken Serafin, 
Workforce Policy Counsel; Linda Stevens, Chief Clerk/Assistant 
to the General Counsel; Loren Sweatt, Professional Staff 
Member; Joseph Wheeler, Professional Staff Member; Aaron 
Albright, Minority Deputy Communications Director; Tylease 
Alli, Minority Hearing Clerk; Daniel Brown, Minority Staff 
Assistant; Jody Calemine, Minority Staff Director; Brian Levin, 
Minority New Media Press Assistant; Jerrica Mathis, Minority 
Legislative Fellow; Celine McNicholas, Minority Labor Counsel; 
Richard Miller, Minority Senior Labor Policy Advisor; Megan 
O'Reilly, Minority General Counsel; Julie Peller, Minority 
Deputy Staff Director; Meredith Regine, Minority Policy 
Associate, Labor; and Michele Varnhagen, Minority Chief Policy 
Advisor and Labor Policy Director.
    Chairman Kline. A quorum being present, the committee will 
come to order.
    Allow me to begin today's hearing by welcoming Secretary 
Solis to the committee.
    Madam Secretary, we are thrilled to have you back. You are 
no stranger to this committee. We want to be very respectful of 
your time and try to keep it moving along here. Many of us had 
the pleasure and honor of serving with you when you were our 
colleague. We are glad to see you back here today as the 
Secretary.
    The Department of Labor is an agency whose size and mission 
have expanded dramatically in recent years. Today it 
administers more than 180 Federal laws, affecting 10 million 
employers and 125 million workers. The Department's policies 
are present in virtually every American workplace, and it has a 
duty to ensure those policies represent the best interests of 
both workers and employers.
    Many of the challenges the country faced 1 year ago are 
still at the forefront of our economic concerns today. Getting 
the economy moving and the American people back to work remain 
pressing national priorities. Clearly, we have a lot of work to 
do.
    Nearly 14 million workers are unemployed. The 
administration had promised that the $814 billion stimulus bill 
would keep unemployment below 8 percent. The Department of 
Labor received almost $5 billion in the so-called stimulus 
funds; yet, for 21 consecutive months, the national 
unemployment rate has been at or above 9 percent. Nearly a 
million individuals have become so discouraged with their 
search for work they have abandoned the workforce entirely--a 
number that has shown little improvement since the Secretary 
was last before this committee.
    Two years of pouring taxpayer money into the economy has 
produced these results. Madam Secretary, we believe this is 
unacceptable.
    Recently, President Obama issued an Executive order that 
requires a comprehensive review of the rules and regulations on 
the books and their consequences for economic growth. It comes 
not a moment too soon. We are willing and eager partners in 
that effort. Promoting job creation and American 
competitiveness will be a leading priority for this committee. 
I believe that is what the American people sent us here to do.
    As we look for ways to encourage investment and hiring, we 
are mindful that our workplaces require certainty. Workers and 
their employers need simple and fair rules of the road that 
promote health, safety, and accountability. They do not need a 
bureaucracy that continues to grow in size and complexity and 
that stifles the freedom and innovation our economy desperately 
needs to grow and prosper.
    That is why your presence here today, Madam Secretary, is 
extremely important. Over the last 2 years, we have seen the 
administration adopt a number of workforce policies that I 
believe threaten job creation and economic opportunity. 
Initiatives such as project labor agreements and ``high road'' 
contracting are clearly designed to favor big labor at the 
expense of small businesses.
    The President recently wrote in the Wall Street Journal 
that, quote, ``Small firms drive growth and create most jobs in 
this country. We need to make sure nothing stands in their 
way,'' close quote. Yet the administration continues to pursue 
policies that disadvantage small businesses and their ability 
to create new jobs.
    The administration has also rolled back commonsense 
disclosure requirements that allow workers to understand how 
their union dues are being spent, denied workers access to 
high-quality investment advice regarding their 401(k) plans, 
and adopted an approach to workplace safety that focuses on 
punishing employers rather than promoting prevention.
    I question how these changes improve the competitiveness of 
our workforce. These policies are not new policies, and neither 
are our concerns. I raise them again in light of President's 
recent Executive order and with the hope the Department will 
take a second look at these and similar policies that hinder 
economic growth.
    As I noted earlier, this committee intends to be a partner 
in the effort to find and remove roadblocks to job creation, 
and I can assure you we will do our part.
    I am also interested to hear in more detail your 
Department's budget priorities for the next fiscal year. I can 
assure you a number of my colleagues have questions, as well. 
You are aware, as we all are, of the fiscal crisis we face as a 
nation. Every dollar spent at the Federal level must be 
accounted for and justified before it is spent. I look forward 
to learning more about the way in which you intend to spend 
taxpayer resources in the months ahead.
    We have a lot of ground to cover in just a few short hours, 
Madam Secretary, and so I will turn now to my colleague, George 
Miller, the senior Democratic member of the committee, for his 
opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    Allow me to begin today's hearing by welcoming Secretary Solis to 
the committee. The secretary isn't a stranger to Congress or this 
Committee. I appreciate the time you have taken to be with us today and 
look forward to your testimony.
    The Department of Labor is an agency whose size and mission have 
expanded dramatically in recent years. Today, it administers more than 
180 federal laws affecting 10 million employers and 125 million 
workers. The department's policies are present in virtually every 
American workplace, and it has a duty to ensure those policies 
represent the best interests of both workers and employers.
    Many of the challenges the country faced one year ago are still at 
the forefront of our economic concerns today. Getting the economy 
moving and the American people back to work remain pressing national 
priorities. Clearly, we have a lot of work to do.
    Today nearly 14 million workers are unemployed. The administration 
promised that an $814 billion stimulus bill would keep unemployment 
below 8 percent. The Department of Labor received almost $5 billion in 
these so-called stimulus funds. Yet for 21 consecutive months the 
national unemployment rate has been at or above 9 percent. Nearly one 
million individuals have become so discouraged with their search for 
work, they have abandoned the workforce entirely--a number that has 
shown little improvement since the secretary was last before this 
committee. Two years of pouring taxpayer money into the economy has 
produced these results. Madam Secretary, this is unacceptable.
    Recently, President Obama issued an executive order that requires a 
comprehensive review of the rules and regulations on the books and 
their consequences for economic growth. It comes not a moment too soon. 
We are willing and eager partners in that effort. Promoting job 
creation and American competitiveness will be a leading priority for 
this committee. I believe that is what the American people sent us here 
to do.
    As we look for ways to encourage investment and hiring, we are 
mindful that our workplaces require certainty. Workers and their 
employers need simple and fair rules of the road that promote health, 
safety, and accountability; they do not need a bureaucracy that 
continues to grow in size and complexity and stifles the freedom and 
innovation our economy desperately needs to grow and prosper.
    That is why your presence here today, Madam Secretary, is extremely 
important. Over the last two years we have seen the administration 
adopt a number of workforce policies that threaten job creation and 
economic opportunity.
    Initiatives such as project labor agreements and high road 
contracting are clearly designed to favor Big Labor at the expense of 
small businesses. The president recently wrote in the Wall Street 
Journal that ``Small firms drive growth and create most new jobs in 
this country. We need to make sure nothing stands in their way.'' Yet 
the administration continues to pursue policies that disadvantage small 
businesses and their ability to create new jobs.
    The administration has also rolled back commonsense disclosure 
requirements that allow workers to understand how their union dues are 
being spent; denied workers' access to high-quality investment advice 
regarding their 401(k) plans; and adopted an approach to workplace 
safety that focuses on punishing employers rather than promoting 
prevention. I question how these changes improve the competitiveness of 
our workforce.
    These policies are not new policies and neither are our concerns. I 
raise them again in light of the president's recent executive order and 
with the hope the department will take a second look at these and 
similar policies that hinder economic growth. As I noted earlier, this 
committee intends to be a partner in the effort to find and remove 
roadblocks to job creation, and I can assure you, we will do our part.
    I am also interested to hear in more detail your department's 
budget priorities for the next fiscal year. I can assure you a number 
of my colleagues have questions as well. You are aware, as we all are, 
of the fiscal crisis we face as a nation. Every dollar spent at the 
federal level must be accounted for and justified before it is spent. I 
look forward to learning more about the way in which you intend to 
spend taxpayer resources in the months ahead.
    We have a lot of ground to cover in just a few short hours, Madam 
Secretary. And so I will now turn to my colleague George Miller, the 
senior Democratic member of the committee, for his opening remarks.
                                 ______
                                 
    Mr. Miller. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    And we welcome the Secretary back to the committee and to 
the Congress. Secretary Solis appeared a year ago to discuss 
the strengthening of the economy and improving the lives of 
American workers. We agreed that our most important priority 
was to get America back to work, jobs that pay fair wages, jobs 
that are safe.
    Madam Secretary, you have made great progress in this area. 
In particular, I applaud your efforts to make sure that our 
Nation's workforce is more responsive to the local economic 
conditions so that workers can be trained and find new jobs.
    And when Americans go to work, they should be paid fairly 
and according to the law. On this front, the Department has 
played a critical role in securing over $300 million in unpaid 
wages to workers. When you came to this office, the Department 
of Labor was lying to those workers. They were telling them 
that those businesses went out of business, that those 
businesses had moved, that those businesses had gone bankrupt. 
All of those were lies, and those workers didn't get the money 
for the hours that they worked. This is a big change, and thank 
you so much for securing the fairness in the workplace for 
those workers.
    I am very pleased that the Department has moved quickly to 
respond to the Upper Big Branch mine explosion and other 
workplace tragedies. Workers are safer on the job, and 
unscrupulous employers are held more accountable for putting 
their employees in danger.
    However, all of this progress is now threatened. The House 
is now debating the Republican spending bill that will reverse 
this course. Too many Americans are still struggling with the 
fallout of the worst financial crisis in more than a half a 
century. That is why job creation and repairing our economy 
must remain at the top of the agenda.
    Central to this mission are millions of American workers 
and local businesses that utilize the Workforce Investment Act 
employment and training services each year. Unfortunately, the 
Republican spending bill eliminates these vital services all 
across the country.
    In fact, starting in April, if these cuts pass, every one 
of the 3,000 One-Stop centers will be closed. It will be closed 
to employers, it will be closed to the community colleges, it 
will be closed to workers, it will be closed to their families. 
Millions of Americans looking for training and looking jobs, 
inquiring about the benefits, will be locked out of those 
centers, will be locked out of that opportunity. This at a time 
when fewer Americans are being recalled to the job they had 
before than in any other recession in this country's history.
    These workers, their families need the training 
opportunities, the retraining opportunities, so that they can 
be employed in their local community. Local workforce boards 
made up of businesses, community colleges, and other leaders 
will be unable to respond to the local employment conditions. 
In light of the chairman's previous statements in support of 
this important program, I hope he would agree that totally 
eviscerating WIA is shortsighted and unwise.
    Finally, when Americans go to work, their jobs should be 
safe. Unfortunately, the Republican spending bill would slash 
worker health and safety.
    Last April, 29 coal miners never returned to their families 
from their shift deep in the West Virginia mountain. In the 
wake of this tragedy, this committee learned the lengths that 
some mine owners, like Massey Energy, would go to to avoid 
improving chronic safety problems, including criminal behavior 
by them and their employees.
    Once we learned the extent of this gaming of the system, we 
ensured that the Department of Labor had sufficient resources 
to stop them. The spending plan on the floor today would once 
again allow mine owners to game the system, to create a 
backlog, and to avoid the responsibilities of the law to keep 
their workers safe, putting those lives at risk.
    This tragedy and other workplace disasters are a reminder 
that the action or inaction of Congress or the regulatory 
agencies can directly affect the lives and the health of our 
citizens. That is why the Republican plan to slash the 
Occupational Health and Safety Administration is so chilling.
    Madam Secretary, under the Republican plan, OSHA will have 
very few options when making significant cuts to worker health 
and safety. There would be thousands of fewer workplace hazard 
inspections. OSHA would be cut to 1974 staffing levels. 1974--a 
great year, the year I entered Congress--we would go back to 
those staffing levels, although there are almost 65 percent 
more workers in this country than there were then.
    There will not be enough investigators to conduct the 
fatality and accident investigations needed. And the funding of 
OSHA's Web site would be zeroed out. A Web site that provides 
employers the access to guidances, to compliances, to 
enforcement and information that they rely on every day--every 
day--would go dark.
    Workers are not cogs in a wheel. They are fathers, mothers, 
sons, and daughters. They deserve basic health and safety 
protections.
    We have seen what happens when you rely on self-
certification, voluntary compliance, and inadequate 
protections: Upper Big Branch mine explosions happen; the 
Deepwater Horizon, from the rogue safety company of British 
Petroleum; the Texas City explosion, of British Petroleum; the 
Imperial Sugar explosions that caused these sons, daughters, 
husbands, wives their lives.
    By statute, the Department of Labor is tasked to, quote, 
``foster, promote, and develop the welfare of wage earners in 
the United States to improve their working conditions and to 
advance their opportunities for profitable employment.'' For 
too long, that mission was forgotten. But you have made 
progress, Madam Secretary, in restoring the mission in the last 
2 years. Unfortunately, the Republican spending bill will turn 
this progress on its head.
    No one is in favor of wasteful spending. No one is in favor 
of special interest loopholes or the outdated government 
regulations that don't work. None of that is favored by anyone 
on this committee. But instead of identifying real government 
waste, like subsidies to big oil or tax cuts to billionaires, 
the Republicans have decided that all of the spending cuts will 
fall on middle Americans and their families, their time at the 
workplace and their time seeking in education and training.
    That is not a recipe for success of this economy in the 
future globalized world. Our workers and our safety and our 
Nation's economic competitiveness can ill-afford these unwise 
cuts.
    And I yield back the balance of my time.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Good morning. I would like to welcome back our former colleague 
Secretary of Labor Hilda Solis to the committee.
    Secretary Solis appeared a year ago to discuss strengthening the 
economy and improving the lives of American workers. We a agreed that 
our most important priority was to get America back to work. Jobs that 
pay fair wages. Jobs that are safe. Madame Secretary, you have made 
great progress in these areas.
    In particular, I applaud your efforts to make our nation's 
workforce programs more responsive to local economic conditions so that 
workers can be trained and find new jobs.
    And, when Americans go to work, they should be paid fairly and 
according to the law. On this front, the department has played a 
critical role having secured $313 million in unpaid wages for workers.
    I am also pleased that the department has moved quickly to respond 
to the Upper Big Branch mine explosion and other workplace tragedies. 
Workers are safer on the job and unscrupulous employers are held more 
accountable for putting their employees in danger.
    However, all of this progress is threatened. The House is now 
debating a Republican spending bill that will reverse this course. Too 
many Americans are still struggling with the fallout of the worst 
financial crisis in more than a half a century. That's why job creation 
and repairing our economy must remain at the top of our agenda.
    Central to this mission are the millions of workers and local 
businesses that utilize Workforce Investment Act employment and 
training services each year. Unfortunately, the Republican spending 
bill would effectively e eliminate these vital services all across the 
country.
    In fact, starting in April, if these cuts pass, every one of the 
3,000 One-Stop career centers will begin to close. Millions of 
Americans looking for training, looking for jobs, or inquiring about 
benefits would be locked out. Local workforce boards made up of 
businesses, community colleges and others leaders will be unable to 
respond to local employment conditions.
    In light of the chairman's previous statements in support for this 
important program, I hope he would agree that totally eviscerating WIA 
is short-sighted and unwise.
    Finally, when Americans go to work, their jobs should be safe. 
Unfortunately, the Republican spending bill would slash worker health 
and safety.
    Last April, 29 coal miners never returned home to their families 
after their shift deep in a West Virginia mountain.
    In the wake of this tragedy, this committee learned of the lengths 
that some mine owners like Massey Energy would go to avoid improving 
chronic safety problems. Once we learned the extent of this gaming of 
the system, we ensured that the Department of Labor has sufficient 
resources to stop them.
    The spending plan on the floor today would once again allow mine 
owners to game the system and put miners' lives at risk.
    This tragedy and other workplace disasters are a reminder that the 
action or inaction of Congress or the regulatory agencies can directly 
affect the lives and health of our citizens. That's why the Republican 
plan to slash the Occupational Safety and Health Administration is so 
chilling.
    Madame Secretary, OSHA will have very few options other than making 
significant cuts to worker health and safety. There would be thousands 
fewer workplace hazard inspections. OSHA would be cut to 1974 staffing 
levels, even though there are 65 percent more private sector workers 
today as there were in 1974. There will not be enough investigators to 
conduct the fatality and accident investigations needed. And, funding 
for OSHA's website would even be zeroed out.
    Workers are not cogs in the wheel. They are fathers, mothers, sons, 
and daughters. They deserve basic health and safety protections.
    We've seen what happens when you rely on self-certification, 
voluntary compliance and inadequate protections. Upper Big Branch 
happens. Deepwater Horizon happens. Imperial Sugar happens.
    By statute, the Department of Labor is tasked to ``foster, promote, 
and develop the welfare of the wage earners of the United States, to 
improve their working conditions, and to advance their opportunities 
for profitable employment.'' For too long, that mission was forgotten.
    But you have made progress in restoring that mission in the last 
two years. Unfortunately, the Republican spending bill will turn this 
progress on its head.
    No one is in favor of wasteful spending or outdated government 
regulations that don't work. Instead of identifying real government 
waste--like subsidies for big oil or tax cuts to billionaires--House
    Republicans have decided to cut on the backs of working people and 
students.
    Our workers' safety and our nation's economic competitiveness can 
ill afford these unwise cuts.
    I yield back.
                                 ______
                                 
    Chairman Kline. I thank the gentleman.
    I am sorry here. Let me get back on track.
    Pursuant to committee rule 7(c), all Members will be 
permitted to submit written statements to be included in the 
permanent hearing record. And, without objection, the hearing 
record will remain 14 days to allow questions for the record, 
statements, and extraneous material referenced during the 
hearing to be submitted for the official hearing record.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                


   Questions Submitted by Hon. Carolyn McCarthy, a Representative in 
                  Congress From the State of New York

    1. I think the Department of Labor has done a great job on a 
variety of fronts, and I commend you for your commitment to American 
workers.
    Today's worker is much different than the worker of past. There are 
different workplace demographics and different expectations for both 
employers and employees. There are surveys out there that conclude that 
women are now nearly 50% of the U.S. workforce, yet still barriers 
exist for them. One of the issues I have been most active on is 
breastfeeding, and what concerns me is the lack of federal attention to 
the issue.
    Last Congress, I introduced a bill, the Exemplary Breastfeeding 
Support Act which would have helped to implement programs in support of 
breastfeeding. I was pleased that the healthcare reform law includes 
language requiring employers to provide reasonable break times and 
private space for nursing mothers on the job.
    Can you tell us a little bit about the implementation of this 
provision and its importance to fostering a fair and equal workplace?
    2. I wanted to reiterate the concern my colleague Rep. Biggert had 
brought to your attention regarding your Department's proposed rule 
expanding the definition of a fiduciary. As you mentioned, ERISA law 
has not been looked at in more than 30 years, and I do not deny that 
the Department of Labor should look into the law and its merits. 
However, as a member who both sits on this Committee as well as 
Financial Services, I implore you to work with your counterparts at the 
SEC and CFTC who have made proposals in this realm as result of the 
passage of Dodd-Frank last Congress. I firmly believe that ambiguity in 
this sector and a lack of dialogue will ultimately hurt consumers, so 
please keep me briefed as to your conversations with your counterparts, 
and I look forward to working with you on the issue.
                                 ______
                                 
    Chairman Kline. It is now my pleasure to introduce our 
distinguished witness, who really needs no introduction.
    Secretary Solis was confirmed as the Secretary of Labor on 
February 24th, 2009.
    You were one of the very first in the new administration.
    Prior to her confirmation, Secretary Solis served as a 
Member of Congress, and we were proud to have her as a 
colleague. She represented the 32nd District in California from 
2001 to 2009. She is a graduate of California State Polytechnic 
University and got her master of public administration from the 
University of Southern California.
    Madam Secretary, welcome back. You know the light situation 
here. I will confess to you up front that I am not going to pay 
much attention to the light for your testimony. We want to hear 
everything that you have to say.
    I will, though, for the benefit of my colleagues, say that 
I will be paying attention to the lights as we get into our 
question-and-answer, and I will probably have to remind you at 
least once.
    But we are pleased to have you here. And the floor is 
yours, Madam Secretary.

        STATEMENT OF THE HON. HILDA L. SOLIS, SECRETARY,
                    U.S. DEPARTMENT OF LABOR

    Secretary Solis. Thank you very much, Chairman Kline and 
Ranking Member Miller and members of this committee. I want to 
thank you for inviting me to come testify before you today. 
And, yes, it is a delight to be back here amongst former 
colleagues and to be in this committee room where, when I began 
my work here in the Congress, this was the committee that I 
served on. And much has changed since then.
    But I know that oftentimes we may agree and agree to 
disagree on issues. So I hope that, with that hope in mind, 
that we will continue to work on those issues that the American 
public wants us to focus in on, and that is the economic 
recovery and providing better opportunities for all of our 
working families here in America.
    Let's just remember how deep and devastating the recession 
was when President Obama took office. That was about the time 
when I took over the reins at the Department of Labor. There 
were more than 4.4 million jobs that had already been lost 
since the start of this recession. We saw job losses in almost 
every sector of our economy, but especially in manufacturing, 
which lost about 1.2 million jobs.
    We are getting our economy back on track with 11--11--
straight months of private-sector job growth, adding 1.1 
million private-sector jobs last year alone, in 2010. In 
addition, we are encouraged by the job growth we are seeing in 
our Survey of Households, including self-employment and hiring 
by new startup businesses.
    Just this last month, I reported that nearly 600,000 more 
Americans were employed compared to the previous month, causing 
the unemployment rate to fall from 9.4 percent to 9 percent. 
But we still, as you know, have a long way to go. That is not 
an acceptable rate.
    I know the House will consider a fiscal year 2011 
continuing resolution this week. We look forward to working 
with Congress to cut spending and to cut the deficit. But to 
win the future, we cannot cut in a way that will undermine our 
ability to out-educate, out-innovate, and out-build our 
economic competitors. And many of the proposed cuts would do 
just that.
    The budget of the President, announced on Monday, is a 
responsible plan that shows how we can live within our means, 
just like a household, and invest in the future. It makes tough 
choices to cut spending and to cut the deficit, and puts us 
back on a path to fiscal sustainability.
    At the Department of Labor, we are working to get Americans 
back to work by providing job seekers the skills necessary to 
land the good-paying jobs for the future, especially in those 
high-growth sectors like health care, IT, and clean energy.
    The health-care sector alone has added an average of about 
22,000 jobs per month over the last year. And the Bureau of 
Labor Statistics projects that health-care jobs will experience 
the largest job growth of any industry over the next decade.
    Even in the manufacturing sector, as you can tell, that is 
also coming back. And all you have to do is point to the 
automobile industry. Just last month, our economy added 49,000 
manufacturing jobs, with 20,000 of those jobs exclusively in 
the automobile industry.
    I have seen this revitalization myself. In fact, last week, 
I visited the GM Hamtramck plant in Detroit that makes the 
Chevy Volt, and the Chrysler-Jeep assembly plant in Toledo, 
Ohio. I spoke to several autoworkers and management who take 
great pride in assembling this innovative, fuel-efficient 
vehicle. I saw amazing results of the administration's 
investment in the automobile industry.
    DOL's investments are making a difference in workers' lives 
to train them for the 21st century. In Florida, we invested in 
training a construction worker who needed renewable energy 
skills to be competitive. With the DOL-funded program, he now 
has an industry-recognized solar photovoltaic degree and better 
jobs opportunities.
    In Minnesota, we linked Jay Booker, a Job Corps student who 
earned a technology skills degree at Humphrey Job Corps Center, 
with a job at the Minneapolis-St. Paul airport, where he has 
now a bright future in the transportation industry. I believe 
Jay was able to come here to visit us today and is here at our 
hearing, right?
    Do you want to be recognized?
    I believe he is your constituent, Chairman Kline. 
[Applause.]
    Secretary Solis. In addition, as you can tell from the 
white jackets in back of me, there are also a number of 
students from our local Job Corps, the Woodland Job Corps 
Center, who are visiting us today.
    On-the-job training programs actually let workers earn 
while they learn. You can imagine a more direct link between 
training and job that is a model that we know works.
    Our National Emergency Grant, something that I believe some 
of the Members here know of, provide a rapid response to your 
constituents in a large-scale manner, especially when there is 
job loss, a big plant closure or mass layoff, or even a natural 
disaster.
    In Fremont, California, our $19 million went in a NEG to 
the NUMMI plant through the National Emergency Grant program, 
which helped to provide assistance to over 4,000 autoworkers. 
They were provided with training and re-employment services 
that they desperately needed to look into new careers.
    Our Trade Adjustment Assistance program provides similar 
help for trade-impacted workers. It is vital that Congress take 
action to extend the TAA extension, which helped thousands--
tens of thousands of workers. When I was in Michigan and Ohio 
just last week, I heard firsthand what an essential lifeline 
the TAA program is.
    Our job-training programs are essential to winning the 
future for our country. We must have a workforce that is 
trained to meet the needs for employers. That is why 
reauthorizing the Workforce Investment Act, know as WIA, is 
such a high priority. We know that the current system isn't 
perfect, but it serves many different populations with good, 
targeted programs. Reauthorization will present, I believe, an 
opportunity to promote innovation, build on strengths, and 
address challenges.
    At DOL, we not only train workers to get new and better 
jobs, but we protect them once they are on that job. We ensure 
that workers are paid wages and overtime that they earned. 
During the past 2 years, Wage and Hour recouped nearly $400 
million in back wages in over 52,000 cases that impacted nearly 
400,000 workers.
    This is not just good for workers, but it is also good for 
business. In this difficult economy, no employer can afford to 
compete against a company that cuts corners or breaks the law.
    For example, all poultry processors are supposed to pay 
workers for the time spent putting on and taking off their 
protective gear. We learned, however, that the biggest 
companies in the industry, like Pilgrim's Pride and Tyson 
Foods, were not living up to their responsibility. It is not 
fair to ask a small poultry processor to do what the big guys 
wouldn't do. That is why I am proud that the Wage and Hour 
division's successful settlement of cases came to a conclusion 
with Pilgrim's Pride and Tyson.
    We all agree that every job in America should be a safe 
job. We are partnering with employers to provide compliance 
assistance and to ensure that they have the tools and 
incentives necessary to make good health and safety decisions.
    In 2010, more than 26,000 small- and medium-sized 
businesses that employed more than 1.5 million workers received 
assistance from OSHA's On-Site Consultation Program free of 
charge. We are also enhancing our dialogue with small business 
about the impact of OSHA regulations. And we are continuing our 
dialogue with all businesses. That is why my fiscal year 2012 
budget funds OSHA's Voluntary Protection Program to continue 
that program's important mission.
    While we work with the business community to keep 
workplaces safe and minimize the regulatory burden, we will 
continue to aggressively enforce our safety and health laws 
against those employers who refuse to play by the rules and put 
workers at risk.
    One dangerous industry where we have focused our resources 
happens to be in the construction industry. We had more 
fatalities in that industry than any other in the private 
sector in 2009. Last year, we held an OSHA National Action 
Summit conference in Houston to discuss what more we can do to 
prevent vulnerable workers and especially construction workers 
from fatalities.
    But too many employers in the construction industry still 
don't get it, like C.A. Franc Construction Company in 
Washington, Pennsylvania. This roofing contractor refused to 
take steps to protect its workers from falls. In 2010, Carl 
Beck, a 29-year-old employee with two children, fell to his 
death when his employer denied him the safety equipment he 
desperately needed.
    OSHA cited these egregious violations, which will deter 
other similar violations and level the playing field. Other 
roofing contractors who provide fall protection for their 
workers shouldn't have to compete against unscrupulous 
employers who don't play by the rules.
    This past year, at the Mine Safety and Health 
Administration, known as MSHA, we have done some extraordinary 
things there. And I am immensely proud of what they have been 
able to respond to. MSHA is using every tool at its disposal to 
reform the behavior of repeat violators.
    Since April, MSHA has conducted more than 200 impact 
inspections across the country. These impact inspections, which 
began in force last April following the explosion at the Upper 
Big Branch mine in West Virginia, involves mines that merit 
increased agency attention and enforcement due to their poor 
compliance with our vital mine safety and health laws.
    MSHA also, for the first time in its history, sought a 
Federal court injunction to protect miners. The law makes it 
very difficult to get an injunction, but we thought this 
extraordinary remedy was necessary to protect miners from the 
egregious conditions at the Freedom Energy Mine located in 
Kentucky.
    MSHA is also upgrading its regulations strategically to 
implement what we have already learned from the Upper Big 
Branch disaster. MSHA issued an emergency standard on rock 
dusting and proposed revamping the pattern-of-violation 
standards.
    MSHA will continue these efforts, but we need to do more to 
reform the behavior of the worst of the worst in the mining 
industry. We don't need to wait for the report from the Upper 
Big Branch investigation to know that we need new mine-safety 
legislation as soon as possible. In fact, long before the 
report on the Sago disaster, President Bush signed the MINER 
Act into law. And I hope we can work together on a new mine-
safety legislation.
    And in order to fulfill our mission at DOL, it is critical 
that we have a strong working relationship with the business 
community. The business community creates the jobs, not DOL, 
not the Federal Government. We need to strengthen our economy, 
and we have to know that we can provide workers with the skills 
that they need for these new jobs.
    Just last week, I had a few meetings with business leaders 
that illustrate our effort to work with the business community. 
I met with Jim McNerney, the CEO of Boeing. We have a strong 
partnership with him, and discussed ways to improve our 
training programs to better serve their needs, including having 
company personnel help create curriculum for training programs 
and teach some of those courses. I also met with 25 members of 
the American Sustainable Business Council, and they agreed to 
work with us, with our One-Stop system, in their hiring 
efforts.
    In addition, our veterans employment administration has 
forged relationships with the National Chamber of Commerce, as 
well as small regional chambers. We are working with them to, 
quote/unquote, ``hire a vet.'' It is an initiative to help our 
veterans and transitioning service members to find good jobs.
    These are but a few of many examples that we are working on 
cooperatively with the business community.
    We at the Department of Labor do our best every day to 
create economic opportunities for employers and working 
families. And I hope I have shown you that we are making a 
difference in the lives of many of your constituents and 
workers throughout this country. I look forward to working with 
you to ensure that we have good jobs and safe jobs for 
everyone.
    Thank you.
    [The statement of Secretary Solis follows:]

         Prepared Statement of Hon. Hilda L. Solis, Secretary,
                        U.S. Department of Labor

    Chairman Kline, Ranking Member Miller, and Members of the 
Committee, thank you for inviting me to testify. It is wonderful to be 
back among my friends and former colleagues. I am also so glad to have 
the opportunity to speak with the many new members of the Committee. We 
have a lot in common. I too once was a freshman member of Congress on 
this Committee. I sat where you now sit so I can empathize with the 
need to quickly get up to speed on the vast jurisdiction of this 
Committee--including the many programs and services that the Department 
of Labor provides for your constituents. I look forward to all of the 
hard and good work we will do together to help working families across 
America.
    I hope you know that my offer to work with you is genuine. Since I 
came before this Committee last year, much has changed here in 
Washington and in the nation. What has not changed is the desire the 
American people have for us to work together to address the many 
challenges facing our nation's working families. Undoubtedly, we will 
not agree on every issue. But I hope we can agree on many and that we 
can also agree on the end goal--to continue to help bring our country 
out of the recession with a stronger economy and better opportunities 
for all working Americans. Only if we make a commitment to this shared 
goal and pool our energies towards achieving it do we have any hope of 
success, because the challenges that remain for American workers are 
still formidable.
    I am happy to report that we have already taken some important, and 
big, first steps towards addressing these challenges, including 
returning many Americans to the workforce.
    But we cannot build a solid foundation for the future while 
ignoring the millions of Americans who are still out of work. We have 
to start where we are.
    Our economy has clearly made significant progress toward recovery 
over the last year. Let us remember just how deep and devastating the 
recession was when President Obama took office. By January end of 2009, 
4.4 million jobs had been lost since the start of the recession in 
December 2007. We saw job losses in almost every sector of the economy, 
but especially in the manufacturing sector, which lost 1.2 million jobs 
between the beginning of the recession and the time President Obama 
took office. Last February when I testified, the best I could say about 
the jobs picture was that the rate of job loss slowed.
    Today, we have much progress to share. In January, the economy 
added 50,000 private sector jobs. We have now had 11 straight months of 
private sector job growth, adding 1.1 million private sector jobs in 
2010. In addition to the jobs we are seeing added in our survey of 
businesses about their payroll, our survey of households is showing 
even more encouraging news. Last month nearly 600,000 more Americans 
were employed compared to the previous month causing the unemployment 
rate to fall from 9.4% to 9.0%. While we still have a long ways to go, 
Americans are showing perseverance and are finding jobs and creating 
new jobs through self-employment and entrepreneurship.
    We still need to see more job creation in order to continue to 
bring down the unemployment rate and to address the problem of the 
long-term unemployed. More than 6 million Americans have been jobless 
and looking for work for over six months. Special challenges arise for 
people who have been out of work for so long. The Administration is 
working aggressively to continue to grow the economy, accelerate job 
creation, and address the special needs of the long-term unemployed. My 
role is to ensure that workers have the tools they need to succeed and 
feed our building economic recovery.
    You have asked me here today to discuss my priorities for the 
Department of Labor in the coming year. In his State of the Union 
address, President Obama spoke of the need to maintain America's 
leadership in a rapidly changing world so that our economy is 
competitive--growing and working for all Americans. To do so, he is 
putting forward a plan to help the United States win the future by out-
innovating, out-educating, and out-building our global competition. At 
the Department of Labor, we are working hard to prepare America's 
workforce to meet this challenge. My goal is to help foster an economy 
in which good jobs are available for everyone and American workers are 
prepared with the skills necessary to be productive in these jobs 
throughout their lifetime. This means jobs that can support a family. 
Jobs that are sustainable. Jobs that are safe and secure. Jobs that can 
lift up the middle class. In short, my highest priority is to get 
Americans back to work in good jobs. And we must make these investments 
while also making difficult choices that will put our nation on a 
sustainable fiscal path.
    The best way to describe my priorities for achieving this goal is 
to look at the Department's accomplishments from the past year. We have 
made a great start and I plan to continue our good work.
Preparing Workers for 21st Century Jobs
    We know that the skills needed to succeed in today's economy are 
different than they were in the early 80s, or even the mid-90s. Going 
forward, we must continue to increase the skills of workers at every 
level. The roots of this recession are deep and complex. The nation and 
the world that is emerging from the recession are different from the 
nation and the world that entered it. The key to American 
competitiveness lies in its workforce being poised to fully participate 
in the 21st Century economy. That is why this Administration is 
committed to advancing the skills and education of all workers, and 
connecting them with potential employers. If we want to get as many 
people as possible into productive careers that can carry them through 
their working lives, and to ensure that America has the labor force we 
need to be competitive in a global economy, we have got to increase the 
skill level of our workforce and link job training programs directly 
with good job opportunities.
    As you all probably know, I am a big believer in the promise of the 
health care and clean energy sectors of the economy. These, and other 
high growth sectors, will provide the jobs of the future. I am proud of 
the investment that the Department has made in training workers across 
the country for these 21st Century jobs. In the health care sector, our 
nation needs more registered nurses, nursing aides, home health aides 
and medical assistants to care for our families. The Bureau of Labor 
Statistics (BLS) projects that health care jobs will experience the 
largest job growth of any industry over the next decade.
    In his State of the Union address, the President called for 80 
percent of America's electricity to come from clean sources by 2035, 
including wind, solar, nuclear, clean coal and natural gas. He is also 
putting forward measures to ensure that the U.S. is the first country 
to put one million advanced technology vehicles on its roads. These 
commitments, coupled with private sector investments, will expand our 
clean energy economy, producing more green jobs. And with BLS' new 
definition of ``green jobs,'' the federal government, states and 
cities, large corporations and small businesses can now better target 
and track their investments in the green economy. Employers will need 
skilled workers to develop, build and maintain the systems that harness 
our country's supply of renewable energy and potential for energy 
efficiency, a particular emphasis of DOL's recent job training efforts.
    The Department's investments in the clean energy economy have 
focused on three goals:
    1. enabling states to develop needed partnerships and plans to 
better align their workforce and state energy policies leading to 
employment;
    2. building the capacity of established job training providers to 
train workers for clean energy jobs; and
    3. directly supporting education and training services for a 
diverse community of American workers either seeking entry into or 
retraining for new and emerging jobs in the clean energy economy.
    Workers across the country are now actively participating in health 
care, clean energy and other in-demand job training programs. They are 
learning skills and receiving credentials needed to move up career 
ladders in a rapidly changing economy. Workers are also being connected 
with employers in these growing industries and in-demand occupations in 
their local communities. We are seeing the impact of Department of 
Labor programs in cities and towns all across the country.
    In Detroit, a struggling single parent of two small children 
completed a DOL-funded training program and almost immediately was 
hired as a contractor for DTE Energy, Detroit's largest utility 
company. Since securing employment, this worker has already been 
promoted to supervisor and sees an opportunity in higher education to 
pursue a degree in engineering. And DOL programs are helping incumbent 
workers expand their skills as well. A construction worker in Florida, 
previously at the top of his profession, soon found himself unqualified 
when solar panel installation and renewable energy skills became a 
requirement. He participated in a DOL-funded program and now has an 
industry recognized Solar Photovoltaic (PV) degree.
    Similar successes are occurring in training for other high growth 
fields, particularly health care. In the District of Columbia, a 26 
year-old, African American woman, residing in a neighborhood where 
unemployment is 30 percent, received DOL-funded training for employment 
in the health care sector. I am pleased that this trainee graduated 
from the program and is now employed as a home health aide. Because of 
her training and credentials, she was able to become self-sufficient 
and has the skills to advance in her new career in the growing health 
care sector.
    Our collaboration with the nation's community colleges is another 
aspect of our focus on preparing workers for the jobs of the future. 
That is why we are collaborating with the business community and 
community colleges on programs to provide the relevant training that 
industries are looking for, and will surely need more of, as we pave 
the way to recovery. As a former trustee on a community college board, 
I know first hand the transformative power these institutions can have 
in the careers and lives of young and older students. Community 
colleges ensure that individuals obtain the credentials they will need 
for good jobs. Since 2005, the Department has invested over $485 
million in over 250 community colleges and related organizations 
through the Community-Based Job Training Grants. By the end of FY 2010, 
these grants provided training to over 171,000 individuals, of whom 
over 72,000 earned a degree or certificate. And it is just as critical 
that employers who understand the needs and the skills desired in their 
specific industries are working directly with community college faculty 
to develop relevant curricula and coursework that prepare workers to 
succeed in good, safe jobs.
    On January 20th, we announced the availability of $500 million for 
the Trade Adjustment Assistance (TAA) Community College and Career 
Training Grants. These competitive grants will provide community 
colleges and other eligible institutions of higher education with funds 
to expand and improve education and career training programs suitable 
for workers who have lost their jobs or are threatened with job loss 
because of trade with other countries. These training programs must be 
timely--training must be completed in two years or less--and the 
overarching goals of these grants are to increase attainment of 
degrees, certificates, and other industry-recognized credentials and 
better prepare the targeted population, and other beneficiaries, for 
high-wage, high-skill employment. The program will also encourage 
community colleges to develop innovative methods, use data, and 
replicate evidence-based practices to improve student outcomes and 
efficiency. For example, grants will support the delivery of online 
education that can allow students balancing the competing demands of 
work and family to acquire new skills at a time, place and pace that 
are convenient for them. We are working with our colleagues at the 
Department of Education as we prepare to award and administer these 
grants.
    Developing the skills of our nation's youth is also critical to 
ensuring that our workforce is ready to succeed in the future. After 
all, today's youth are tomorrow's workforce. The Department has some 
great success to build on in the coming year. Through our YouthBuild 
program, we are providing disadvantaged youth with the knowledge and 
skills required to fully participate in the economy of the 21st 
Century. As part of the Recovery Act, we awarded 47 of the 62 Green 
Capacity Building job training grants to YouthBuild programs. These 
grantees were able to purchase equipment and provide certifications for 
their instructors to support energy efficiency and renewable energy 
industries. These Green Capacity Building grants have enhanced the 
capacity of these YouthBuild grantees, by allowing them to serve more 
than 2,750 young people through the program. One great example is the 
ARCH Training Program here in D.C., where YouthBuild students assembled 
solar suitcases that were sent to Haiti and were used to power medical 
equipment in areas with limited, or no electrical power.
    Similarly, our WIA Youth program is building a better future for 
deserving young people and our nation. State and local areas used close 
to $1.2 billion in Recovery Act funds to create robust, high-quality 
programs that served 414,256 youth, including more than 350,000 served 
during the summers of 2009 and 2010. These young people participated in 
summer employment opportunities in clean energy, weatherization, solar 
installation, retrofitting, and health care occupations. These 
employment opportunities allowed young people to gain job experience 
that will help them succeed both in higher education and in the 
workforce.
    Take, for example, a young woman who was homeless and trying to 
escape an abusive boyfriend. She ended up in a shelter in Boston that 
put her in touch with the Action for Boston Community Development's 
(ABCD) Health Career Explorations Program. The ABCD program included 
workshops on self esteem and job readiness that prepared her to take on 
the challenge of participating in a home health aid certification 
program and a CPR/First Aid certification program. Her drive and 
determination helped her land a paid summer internship in the Radiation 
Department at the Beth Israel Deaconess Hospital. Once at Beth Israel, 
she found out about the different professional development 
opportunities available to her. One of these programs was the Medical 
Interpreters Program. Thanks to the discounted price available to her 
as a hospital staff member and the sponsorship from the ABCD Youth 
Explorations program, she was able to take advantage of this program. 
The WIA youth program really changed this young woman's life by 
preparing her for a career in the growing field of health care.
    Our Job Corps program has a long history of preparing disadvantaged 
youth for a successful transition into the workforce and we should all 
be proud of the program's accomplishments. As with all of our job 
training programs, we are shifting Job Corps to focus on 21st Century 
jobs. For example, this year Job Corps partnered with the National 
Healthcareer Association (NHA) to pilot a training and certification 
program for an Electronic Health Records Specialist job track. As our 
country shifts to greater use of digital media and paperless 
recordkeeping, the demand for qualified health record specialists is 
growing rapidly. The NHA partners with over 1,300 educational 
institutions through the country to prepare students for national 
health care-related certification exams. Our pilot, which will run 
through April of this year, involves a total of approximately 500 full-
time students at nine Job Corps centers, including those in many of 
your home states, such as Virginia, Ohio, New York, Florida, 
Pennsylvania, and Nevada.
    Our Job Corps program does not just help young people in our 
nation's cities. We are also in rural areas, training students for jobs 
that make sense in their communities. For example, in Representative 
Noem's district, we are serving South Dakota's youth for employment 
throughout the state. Twenty-one year-old Nick Andrews was looking for 
real world bricklaying experience, and he found lots of it while 
restoring the Mount Roosevelt Friendship Tower in South Dakota's Black 
Hills region. Andrews is a student at the state's Boxelder Job Corps 
Civilian Conservation Center. He joined other center students and a 
stone mason in an 11-week facelift of the tower, created to honor 
President Theodore Roosevelt's support of conservation. The restoration 
was funded by the Recovery Act in an effort to restore the monument for 
public use by next July, its 90th birthday. ``It is nice to give back 
to the public,'' he said about his restoration efforts, adding that at 
Job Corps, ``I learned responsibility and leadership skills.''
    Chairman Kline, I hope one day you have the opportunity to meet Jay 
Booker, a Job Corps student in your state of Minnesota, who has turned 
the technology skills he earned in Job Corps into a job at the 
Minneapolis-St. Paul Airport. Jay came to Job Corps with a high school 
degree and a desire to better his life. At the Hubert H. Humphrey Job 
Corps Center in St. Paul, he received advanced training to prepare him 
for a career in the transportation industry. He is now a productive, 
positive contributor to the economy of your state.
    While the Department is focused on the jobs of the future, we also 
understand that workers who are laid off cannot wait until the future 
to get a paycheck. We are doing everything we can to get workers into 
jobs quickly. From the first sign of a layoff to starting a new job, 
the Department is helping your constituents and all Americans navigate 
the world of job search, education and training, resume writing, and 
interviewing, thus reinventing their vision of a better future. Our 
staff also help unemployment insurance claimants with income support 
needed to help pay their rent, put food on their table, and provide the 
necessities of life for their families. In fact, 23 million unemployed 
workers received $150 billion in unemployment insurance benefits in 
2010. We should remember that those workers have an ongoing 
responsibility to look for new employment while they are receiving 
unemployment insurance benefits. And, that these benefits help not only 
those who receive them, but help our entire economy. This year we 
released a study commissioned by the Bush Administration that found 
that every dollar of unemployment benefits leads to $2 spent in the 
economy, keeping even more Americans in jobs.
    We are looking at new strategies for shortening the period of 
unemployment for unemployed Americans. DOL hosted a national 
Reemployment Summit for approximately 800 state and local practitioners 
in December to highlight successful practices, tools, and techniques 
that are connecting unemployed workers to jobs. Looking ahead, DOL will 
be funding state models to build a common front door to the workforce 
system that is supported by integrated registration, common customer 
records, and electronic tools and social networking solutions to 
finding jobs or job training.
    When large-scale, unexpected economic events have occurred in your 
states, our National Emergency Grants (NEGs) have been there to provide 
a rapid response to the crisis. Significant dislocation events include 
business closures, mass layoffs, or realignment and closure of military 
installations as a result of the Base Realignment and Closure (BRAC) 
initiative. National Emergency Grants help displaced workers adapt in a 
changing economy. As many of you know, these grants temporarily expand 
the service capacity of Workforce Investment Act Dislocated Worker 
training and employment programs at the state and local levels. 
National Emergency Grants provide resources to states and local 
workforce investment boards to quickly help laid-off workers get 
rehired by offering such services as skills assessments, career 
counseling, job placement and training to increase occupational skills. 
Grant funds can also provide supportive services to participants, such 
as transportation subsidies, child care and income support in the form 
of needs-related payments.
    I would like to share with the Committee one example from 
California that best illustrates how National Emergency Grants can 
extend a helping hand to workers and communities hit hard by economic 
disaster. In late 2009, it became clear that the New United Motors 
Manufacturing Inc. (NUMMI) plant and several of its suppliers were 
going to go out of business. The closure of the 5 million square foot 
plant in Fremont, California presaged economic devastation for the 
Fremont community. More than 4,300 workers at NUMMI and several of 
NUMMI's suppliers were at risk of unemployment, with nowhere to go, as 
NUMMI was the only automotive plant on the West Coast.
    The Department worked with the California Employment Development 
Department on a National Emergency Grant to help NUMMI workers get the 
training and employment-related services they so desperately needed. 
Within two months of the NUMMI closure in April of last year, I 
announced the investment of a $19,042,012 National Emergency Grant for 
the training and re-employment of displaced NUMMI plant workers and 
their suppliers' workers. I made the announcement at the NUMMI Re-
employment Center, surrounded by those NUMMI workers who would benefit 
from the grant. The NUMMI grant covers an estimated 4,350 workers 
across 29 counties. Additional Trade Adjustment Assistance (TAA) funds 
are available to pay the costs of vocational re-training, which 
typically is the most costly component of dislocated worker re-
employment assistance. I am happy to report that as of early December 
2010, over 4,300 of these dislocated workers had been enrolled and are 
being served. In fact, the NUMMI Re-employment Center (NRC) classes are 
filled to capacity, and the NRC is looking for alternative classroom 
facilities to meet the demand. The scope of services to these 
dislocated workers project-wide includes needs assessment, counseling, 
re-employability plan development, vocational re-training, including 
on-the-job training, and job placement assistance.
    NUMMI workers are embarking on every type of new career at a wide 
array of companies. For example, Ray Morimoto worked at a NUMMI 
supplier at Injex Industries as a manufacturing engineer. After being 
dislocated due to the NUMMI plant closure, Ray enrolled at the San Jose 
NUMMI Career Transition Center (NCTC), work2future. Ray expressed 
frustration and constant worry in the beginning of his training and job 
search but kept a consistent, hardworking attitude. Ray attended case 
manager and job developer appointments to seek advice and guidance and 
used the NCTC computer center for job search. In addition, Ray 
participated in the Advanced Transportation Technology & Energy, Energy 
Efficiency Management Program at West Valley College to enhance his 
marketability.
    Ray called NCTC to tell the staff that he had applied for a job 
posting from work2future for Chromasun, a solar thermal start-up 
company, had a successful job interview, and received a job offer for a 
Lead Manufacturing/Quality Engineer position including benefits and a 
salary of $80,000 per year. Shortly after Ray was hired, he assisted 
Chromasun with the recruitment and hiring of other highly qualified 
NUMMI colleagues.
    The NUMMI workers are finding good jobs. While they made on average 
$30.97 per hour last April when NUMMMI closed, in their new jobs they 
are making an average of $26.35. That is approximately 85% of their 
former wage, which is excellent, considering current economic 
conditions and competitiveness for employment in the Northern 
California area. We have National Emergency Grant successes like NUMMI 
in many of your states.
    Our NASA-related National Emergency Grant is another example of the 
Department's commitment to getting involved early and in a 
comprehensive manner when workers lose their jobs and their families 
and communities are in need. I am sure that we all read with interest 
in the newspaper when NASA announced that it was retiring the Space 
Shuttle. The National Emergency Grant program played a key role in 
easing the transition of the affected aerospace workers in the Central 
Florida area. The Brevard Workforce Development Board was awarded a $15 
million National Emergency Grant in June 2010 to help aerospace workers 
affected by the phasing out of the Space Shuttle and Constellation 
programs to transition into other occupations. The grant allows Brevard 
Workforce and its partners to continue the work they are already doing 
to help aerospace workers transition into new employment when the 
Shuttle and Constellation programs end. To date, $7.8 million of the 
$15 million NEG has been released to the Brevard Workforce Development 
Board.
    The National Emergency Grant focuses its training dollars largely 
on creating on-the-job training (OJT) opportunities with area 
businesses from Brevard and counties from the surrounding Central 
Florida Region. The grant also provides occupational classroom training 
opportunities. These training opportunities are geared toward eventual 
long-term employment for the transitioning aerospace workers, thus 
aiding the region's aggressive economic development effort to help 
create and sustain jobs. Training is targeted at those industries that 
show the most promise of providing workers with good long-term career 
prospects in the region: biotechnology, environmental, biomedical, 
automotive, electronics, telecommunications, geospatial systems, health 
care, aviation, IT, modeling and simulation and commercial 
construction.
    The change in NASA's schedule for ending the Space Shuttle Program 
has kept the NASA workers on the job for a while longer than we had 
anticipated. That delay has given the area workforce agencies extra 
time to hire and train additional staff and reach out to area employers 
to find where the jobs will be when the Shuttle program ends. As of 
mid-January 2011, Brevard Workforce Development Board secured 148 OJT 
slots with an average hourly wage of $31.43. We will continue to look 
for the communities that need this kind of help from the Department in 
the coming year and will provide the same excellent level of service to 
those communities, wherever they are.
    As we did last year, in the coming year we will focus on ways to 
train workers that help meet their long-term needs, while also 
addressing their immediate needs. Many workers simply must find ways to 
support themselves and their families while seeking training and the 
Department has done much to meet the needs of these workers. We are 
advancing and building on ``learn and earn'' models--such as on-the-job 
training, Registered Apprenticeship, and transitional jobs--that 
provide earnings while increasing employability, skills, and 
opportunities for advancement, particularly for disadvantaged 
populations. We also will emphasize accelerating learning strategies 
for low-income and low-skill workers, such as offering basic skills and 
English language proficiency with career or technical skills training.
    The on-the-job training model is one that fits our times. It has 
tremendous support from both business and labor because it delivers 
much-needed training and a paycheck for workers, while helping to 
defray some of the employer's costs of providing that training. In our 
OJT programs the employer is reimbursed for a percentage of the wages 
paid to the worker in training. Participants have a chance to ``learn 
and earn,'' gaining skills while getting paid.
    For employers, OJT offers the unique opportunity to offset initial 
training costs to fill positions while building the company's 
productivity as the participant learns the job. An OJT arrangement can 
be the impetus for an employer to create the job opportunity now 
instead of waiting for higher economic growth. For the long-term 
unemployed, OJT gets them back into the job market earning a paycheck 
and refreshing their work skills. We have had great success so far. In 
an economy where employers are reluctant to hire, OJT is unique among 
WIA services in that it places the worker directly with the employer, 
providing the employer with reimbursement for the extra costs of 
training. And WIA participants who receive OJT typically experience a 
higher rate of job placement than other participants.
    In June of last year, we announced $75 million in Recovery Act 
funds for OJT National Emergency Grants. Those funds went to 41 states, 
the District of Columbia, and three federally recognized Native 
American Tribes. These National Emergency Grants, or NEGs, are a one-
time funding source to support on-the-job training for the long-term 
unemployed, especially in areas disproportionately impacted by the 
recession. For example, in your home state of Oregon, Representative 
Wu, under the $2,119,166 OJT NEG that the state received, a total of 14 
OJT projects have been established, including some in very rural areas, 
where the recession has taken a significant toll on small businesses.
    During 2010, the Department provided intensive guidance and 
assistance to our grantees to ensure that they would be good stewards 
of the money awarded to them. Our efforts included an OJT toolkit 
website, which has been met with very favorable reviews from our 
workforce partners, and an all-grantee meeting in August. We have also 
assisted grantees in the planning process so that they design OJT 
projects that will maximize job placement. This enhanced and necessary 
planning process went beyond even the extensive oversight that DOL 
already conducts for most National Emergency Grants because of the 
unique nature of the OJT program and the public workforce system's 
limited recent experience implementing OJT on a broad scale. I am 
looking forward to seeing the fruits of our efforts this year when the 
grantees have fully implemented their programs and the results start 
coming in. I hope you will share with me any stories you hear from your 
constituents about the impact of these grants.
    I would also like to share with you some information about the 
success of our Registered Apprenticeship program, which I know is 
important to many on the Committee. Registered Apprenticeships, like 
OJT, are ``earn while you learn'' opportunities. In 2010, more than 
100,000 workers entered into a Registered Apprenticeship program. This 
equates to over 100,000 individuals entering or returning to work, with 
over 400,000 active apprentices continuing to earn and learn in over 
20,000 apprenticeship programs nationwide. In addition, more than 
50,000 program participants completed their apprenticeships and 
received a nationally recognized credential that is portable and 
provides a path to the middle class. Our apprenticeship programs are 
serving all segments of the economy. Although many people associate 
apprenticeship programs with unions, in fact, only 19% of the federally 
registered apprenticeship programs that the Department oversees are 
joint labor-management programs. Finally, I am especially proud of the 
fact that the Office of Apprenticeship recently recognized Wind Turbine 
Technician as the first new green occupation to be added to the 
official list of apprenticeship occupations--another example of how we 
are working across the Department to best prepare workers for the 21st 
Century.
    For a newly unemployed or underemployed worker, navigating the 
world of job searching, education and training opportunities, and 
federal support programs can be daunting. The Employment and Training 
Administration (ETA) has developed virtual tools that make it easier 
for unemployed workers to get the assistance they need to get back to 
work. For example, we launched an exciting new electronic tool on Labor 
Day called mySkills myFuture which makes it easy for unemployed workers 
to determine how their current background and experience qualify them 
for other potential jobs. Users are able to view local job postings and 
locate training and education providers in their area. They are also 
able to find descriptions, salary information and common job tasks 
associated with the new occupations they are considering. Since its 
launch in September of last year, mySkills myFuture has received more 
than 398,000 visitors.
    I am also excited about a new career exploration tool called 
MyNextMove that launched on February 3. MyNextMove.gov provides the 
public with a more user-friendly tool that simplifies the information 
that individuals need in order to make informed career decisions. It's 
written at a reading level that makes accessible to everyone the wealth 
of existing information on the skill requirements and other 
characteristics of occupations available in the Occupational 
Information Network (O*NET).
    We have also worked with the White House to upgrade the Worker 
ReEmployment Portal to provide unemployed workers, including those who 
have exhausted their unemployment benefits, all the information they 
need in one place. The site offers a single source for information on 
jobs, career training, unemployment benefits, and assistance with 
necessary services such as food, health care, and utility payments. 
Since its launch, in December 2010, the site has had more than 67,000 
visitors. We also are seeking ways to take advantage of on-line 
learning technology, for example virtual platforms, to reach as many 
workers as possible with training programs that increase skills and 
attainment of industry-recognized credentials.
    I am also extremely proud of the work the Department of Labor is 
doing to help our nation's Veterans. Our Veterans' employment and 
training programs are part of a larger effort to provide a smooth 
transition process for assisting Veterans, transitioning Service 
Members and their spouses as they seek to identify and secure 
productive civilian opportunities. By promoting priority of service for 
Veterans in the One-Stop Career Center system, we ensure that over 1.6 
million Veterans receive the training and employment assistance they 
need to obtain good jobs. Our homeless programs help nearly 18,000 
Veterans in their efforts to reintegrate into the workforce. We provide 
transition assistance to 127,000 Service Members and spouses as they 
move from the military into civilian careers. Our Veterans Employment 
and Training Service is collaborating with the Vocational 
Rehabilitation and Employment Service of the Department of Veterans 
Affairs to ensure that Veterans with disabilities receive the training 
and employment assistance that will enable them to achieve their career 
goals. The Department is proud to assist our heroes who have served our 
nation well.
    All of the foregoing job training initiatives benefit from the 
extensive policy analysis, research and technical assistance activities 
performed by the Office of Disability Employment Policy--or ODEP as we 
call it. Job training and job placement initiatives, as well as the 
labor standards enforcement activities that I will highlight in a 
moment, are made more effective because of the knowledge resources that 
ODEP provides on how to enable people with disabilities to have access 
to--and receive the benefits of--these services.
Assuring a Fair and High Quality Work-Life Environment
    While it is easy to forget in the midst of a recession, merely 
having a job is not always enough. We want these to be good jobs that 
pay fair wages, keep workers safe, and provide basic benefits. The 
Department's enforcement agencies, including the Wage and Hour 
Division, help inform workers of their rights and employers of their 
responsibilities. This is not just good for the workers. It is also 
good for businesses. Detecting and remedying labor violations protects 
law-abiding firms from unfair competition against those who flout the 
law and cut corners by paying workers less than they are owed.
    The Department's Wage and Hour Division has made great strides in 
assuring that workers' rights on the job are respected and that 
employers who break the law do not have an unfair advantage over the 
vast majority of employers who play by the rules. In the two years 
under my leadership at the Department, Wage and Hour has secured 
impressive amounts of back wages for workers across the country. When 
an employer in your district violates the Fair Labor Standards Act by 
not paying the required minimum wage or overtime, that employer is 
taking money out of the pockets of your constituents. Consider that 
Wage and Hour was able to recoup over $10 million in back wages for 
over 16,000 workers in the state of Pennsylvania since 2009. In 
Tennessee, Wage and Hour's work on over 1,400 cases resulted in almost 
10,000 workers receiving $7.9 million in back wages. Throughout the 
country, Wage and Hour has recouped nearly $400 million in back wages, 
assessed over $18 million in civil monetary penalties in over 52,000 
cases and impacted nearly 400,000 workers.
    I do not want to leave the impression that these cases are just 
about moving numbers between columns in a ledger. The numbers I have 
cited represent workers who have been harmed by employers who violate 
the law and the difficulties that honest employers face trying to 
compete in industries and geographic areas where Fair Labor Standards 
Act violations are rampant. For example, conditions in the garment 
industry have long pushed contractors to cut corners with respect to 
wages, hours and employment conditions. Wage and Hour and other state 
and federal enforcement agencies had tried for years to make a 
difference in this industry, without much success.
    Instead of targeting contractors, who are often small businesses, 
Wage and Hour is focusing on manufacturers, often larger employers, by 
invoking the long-ignored ``hot goods'' provision of the Fair Labor 
Standards Act. The ``hot goods'' provision prohibits the movement of 
goods in commerce that have been manufactured in violation of the law. 
Manufacturers and retailers who do business with unscrupulous 
contractors put at risk their ability to make good on promised orders. 
This pressure on the manufacturers and retailers encourages them to 
create compliance programs for their contractors and subcontractors and 
has the potential to reform the whole industry--without the Department 
having to investigate thousands of businesses.
    In California, we used this strategy successfully to secure 
$158,952 for 110 garment workers who worked for Angel's Finishing, 
Inc.--a contractor of the high-end clothing manufacturer, Joe's Jeans. 
These garment workers were working extremely long hours finishing high-
end jeans that were later shipped throughout the U.S. and sold at 
exclusive department stores such as Macy's, Neiman Marcus, Dillard's, 
Bloomingdale's, Saks Fifth Avenue, and Nordstrom. Angel's Finishing was 
paying workers on a piece-rate basis without regard for minimum wage 
and overtime pay for all hours worked (for example, they forced 
employees to work off the books on weekends).
    This was a clear case of a company enjoying profits on the backs of 
vulnerable workers who were not paid the proper wages. Following this 
investigation, the Department pursued an action that prohibited the 
shipment of goods produced by Joe's Jeans contractor until all back 
wages had been paid. When Angel's Finishing refused to make the workers 
whole, Joe's Jeans was forced to step forward and accept liability for 
its contractor's violations. In addition to paying the full amount of 
back wages, Joe's Jeans was also required to conduct periodic 
monitoring of its contractor for wage and overtime law compliance, as 
well as education and outreach efforts, and to discuss the financial 
terms of its contracts to ensure the contractor's financial ability to 
comply. By pursuing this case and other similar cases in the garment 
industry, the Wage and Hour Division has helped level the playing field 
for all law-abiding employers in the industry and more workers are 
getting the pay they are entitled to by law.
    When employers cheat workers out of their wages, these workers pay 
lower taxes to the Treasury than they would have paid. Employers in 
turn pay lower taxes on those wages, which means that vital programs 
like unemployment insurance are inadequately funded and available for 
workers. Without strategic enforcement, this underground economy is 
allowed to thrive and we all lose.
    Throughout the past year, Wage and Hour focused on finding 
strategies for best leveraging the Department's resources to transform 
industries and level the playing field for all employers. Wage and Hour 
has found that aggressively enforcing the law when industry leaders 
disregard it can have a beneficial effect throughout the industry. For 
example, Wage and Hour reached settlements with Tyson Foods and 
Pilgrim's Pride, the country's largest poultry processors. These 
processors had failed to pay workers for the time they spent putting on 
and taking off protective and sanitary gear they needed to wear in the 
workplace. The settlements require these processors to pay all of their 
production employees for all of this work in all of their facilities. 
You can imagine that it would be difficult to convince a small poultry 
processor to pay its workers for this time when the industry giants 
were not. As a result of Wage and Hour's successful enforcement 
actions, vulnerable workers and small businesses throughout the poultry 
industry are better protected.
    Wage and Hour is also tasked with protecting youth on the job. I am 
so pleased to share with you a real success story that has made a 
difference in the lives of many of your constituents. In 2009, Wage and 
Hour found egregious child labor and other labor-related violations in 
the blueberry fields of New Jersey, North Carolina, and Michigan. In 
addition to assessing penalties, Wage and Hour took a comprehensive 
approach to ending the dangerous practices it had uncovered. Our staff 
met with farm groups, community organizations, and state and local 
agencies to be sure that employers understood their obligations and 
that workers understood their rights.
    When Wage and Hour went back into the blueberry fields in 2010, 
there were no children working unlawfully in those fields. 
Representative Walberg and Representative Woolsey, as the new Chair and 
raking Member of the Workforce Protections Subcommittee, I am sure you 
are both pleased to know that we are succeeding in preventing children 
in Michigan from working under dangerous and unlawful conditions on 
your state's commercial blueberry farms. Again, I am proud of the 
Department's thoughtful use of resources to transform an industry that 
was abusing American workers.
    In addition to this great work to change industry practice so that 
workers and their wages are protected, the Department's Wage and Hour 
Division is also playing an important role in assuring high quality 
work-life environments. Achieving work-life flexibility is another 
priority of mine, which includes enforcement of the Family and Medical 
Leave Act (FMLA). As you know, the FMLA entitles eligible employees to 
unpaid, job-protected leave for certain family and medical reasons. 
Some of the most compelling stories we have about our enforcement 
efforts come from workers who were reinstated in their jobs with back 
wages after the Department intervened in support of their rights to 
FMLA leave. For example, Wage and Hour received a complaint from a 
woman in Georgia who was battling cancer. She was out on unpaid medical 
leave and recuperating from a major surgery, preparing for another. Her 
employer cancelled her health insurance just before the 2nd surgery and 
was preparing to terminate her. Not only was the surgery postponed, but 
without insurance she could not afford to see her doctors or get her 
prescriptions filled. After the Wage and Hour Investigator explained 
the terms of the FMLA to the employer, the employer agreed to reinstate 
the worker and restore her health insurance in time for the surgery.
    The Wage and Hour Division recently assumed another responsibility 
related to work-life flexibility, enforcing the new break time for 
nursing mothers law, ensuring women who choose to breastfeed their 
infants have the ability to continue to do so even after they return to 
work. We are working expeditiously to ensure both nursing moms and 
employers have the guidance they need to not only invoke their rights 
and comply with the law, respectively, but also make the appropriate 
arrangements that work both for the nursing mother and the employer. 
The Department's role in this effort will undoubtedly help nursing moms 
achieve a balance between their jobs and caring for their children, and 
help employers retain good workers at great economic benefit to them 
and the workforce overall.
    The President's FY2012 budget establishes a $23 million State Paid 
Leave Fund within the Department of Labor that will provide competitive 
grants to help states that launch paid-leave programs that are 
affordable for employers and workers. Addressing work-life balance is a 
priority of this Administration and benefits workers, employers and 
families. We look forward to working with Members of the Committee on 
work-life balance proposals and funding for programs that help workers 
be productive and successful in our economic recovery.
    At my Department of Labor, we will hold accountable anyone who 
treats workers unfairly, whether they are employers or unions. I am 
extremely proud of the work that the Office of Labor Management 
Standards has been doing to protect union workers. Consistent with our 
theme of pursuing the worst of the worst, OLMS has increased its 
criminal convictions each year since I came to the Department. In 2008, 
OLMS enforcement efforts resulted in 103 convictions; in 2009 121 
convictions and in 2010, 130 convictions. Despite these difficult 
budgetary times, our budget request for OLMS is level with our request 
for last year.
    The Department's Office of Federal Contact Compliance (OFCCP) is 
also protecting workers and strengthening our economy by opening the 
doors of opportunity for all of workers. Over the past two years OFCCP 
has negotiated conciliation agreements on behalf of more than 34,250 
workers, resulting in more than $19 million in financial awards and 
over 3,600 potential job offers for workers who have been subjected to 
discrimination. Of particular note is an agreement recently reached 
with federal contractor Green Bay Dressed Beef that includes a $1.65 
million settlement for 970 women who were subjected to hiring 
discrimination. The agreement also netted 248 potential job offers. As 
the economy shows signs of growth, OFCCP continues to ensure that 
American companies leverage the benefits of hiring a well-trained and 
diverse workforce. To these ends, its focus is on strengthening 
enforcement, implementing regulatory reform and broadening outreach.
Ensuring Workplaces Are Safe and Healthy
    Another goal that I hope we all agree on is to ensure that every 
job in America is a safe job. Even in a recession, no worker should 
have to risk his or her life to bring home a paycheck. Our worker 
safety and health agencies--OSHA and MSHA--are on the front lines 
protecting workers from workplace hazards. Even though we have made 
incredible progress in protecting workers on the job since these two 
agencies were established decades ago, it is still wholly unacceptable 
that nearly 4,400 workers died last year on the job and over 3 million 
were seriously injured.
    One of my top priorities for OSHA in the coming year is to continue 
its outreach to vulnerable workers, such as young workers, minorities, 
older workers, and workers with low literacy skills who work in low-
wage and high-risk industries with little or no access to information 
and resources on preventing injuries and illnesses. When I came before 
the Committee last year, I shared with you our plans for a National 
Action Summit for Latino Workers Health and Safety in Houston. I am 
happy to report that we held the summit last April in Houston and it 
was a remarkable success. We welcomed representatives of business, 
labor, faith-based and community organizations. OSHA is continuing its 
extraordinary outreach efforts this year.
    OSHA's work on the Deepwater Horizon Oil Spill response in the Gulf 
states was a great example of this broad-based outreach effort in 
action. During the peak of the operations, more than 47,000 men and 
women were involved in responding to and cleaning up the oil spill each 
day. This included more than 42,000 response and cleanup workers 
employed by BP and its contractors, 1,600 members of the National 
Guard, and more than 2,400 federal employees. Many workers faced 
potential exposure to weathered oil, oil byproducts, dispersants, 
cleaning products, and other chemicals used in the cleanup process. 
Depending on their assignments, these workers also faced potential 
hazards from extreme heat, slips, falls, material handling, electrical 
hazards, and more. OSHA initiated outreach to scores of community 
organizations representing a wide range of workers and to employers 
providing the clean up services. OSHA distributed over 50,000 health 
and safety publications in three languages to workers in the Gulf. In 
addition, OSHA worked closely with employers, including BP, to ensure 
that workers had the appropriate protective equipment, adequate 
training, and information about heat stress in particular. The result 
was a remarkably safe experience for the workers participating in the 
clean-up effort.
    Of special note, when I came before you last year, I reported on 
the largest fine in the history of OSHA levied on BP. I have an 
important update on that case. Since OSHA issued the BP fine--which it 
issued only after it found that the company had not fulfilled its 
promise to abate hazardous conditions after a horrendous and 
preventable accident at its Texas City Refinery that killed 15 
workers--OSHA has been working closely with BP to reform its safety 
practices at the refinery. As part of the settlement of a large portion 
of the BP fines, OSHA and BP agreed on specific steps that BP would 
take by March of 2012 to address the safety hazards at its facility and 
reform its safety practices. In addition, the settlement allows OSHA to 
monitor BP's compliance to see that it eliminates the types of 
conditions that caused the disaster. I consider this agreement a model 
of how OSHA can work with business to transform the culture of safety 
for the benefit of all involved
    Another way OSHA is working with business to reform the culture of 
safety is through its Alliance and compliance assistance programs. As 
many of you probably already know, the President's budget for 2012 
requests continued funding for the Voluntary Protection Program--a 
welcome development in the business community. OSHA will also continue 
to fully support its On-site Consultation Program. I hope you have all 
heard from small businesses in your districts that have benefited from 
this program. In 2010, more than 26,000 small and medium-sized 
businesses that employ over 1.5 million workers received on-site 
assistance from OSHA's On-site Consultation Program free of charge.
    These cooperative programs and outreach efforts are providing the 
Agency with information on safety and health practices and improve our 
ability to communicate with industry and hard-to-reach workers. As a 
result, OSHA is able to operate more effectively and responsively.
    In addition to the comprehensive economic feasibility reviews we 
conduct, OSHA has taken several steps in recent weeks to enhance our 
dialogue with small business about the impact of OSHA regulations. For 
example, in response to the concerns raised by the small business 
community to OSHA's proposal to reinstate an additional step for 
recording musculoskeletal disorders on the OSHA injury logs, OSHA 
temporarily withdrew the proposal from Office of Management and Budget 
(OMB) review, and it is now working with the Small Business 
Administration's Office of Advocacy to meet with small business owners 
and other stakeholders to discuss their concerns. OSHA's focus--
protecting workers on the job--will never change, but we are open to 
talking to all who have good ideas about how to get there.
    While we work with the business community on minimizing the 
regulatory burden, I want you all to know that OSHA will continue to 
aggressively enforce our safety and health laws against those employers 
who refuse to play by the rules and who put profits above their 
workers' lives. Often, strong enforcement is the only option to get the 
attention of recalcitrant employers. Moreover, strong enforcement 
protects business by creating a fair market for them to compete in. The 
vast majority of employers in our nation care deeply for their 
employees and spend their hard-earned revenue on running a safe 
workplace. We cannot sit by while they are forced to compete with 
employers who unlawfully cut corners on safety.
    OSHA took action when workers in Pennsylvania were put at risk 
while working for CA Franc Construction in Washington, PA--a roofing 
contractor who refused to take even the most rudimentary steps to 
protect its workers. CA Franc repeatedly refused to allow workers to 
use fall protection when they worked on steeply pitched roofs. In 2010, 
employee Carl Beck fell to his death. He was 29 years old and left 
behind two children. It must have caused Mr. Beck's family endless 
anguish and grief to know that fall protection equipment was available 
on the roof with Mr. Beck, but the owner of CA Franc would not let him 
use it. OSHA issued citations to CA Franc for its egregious violation, 
and the owner pled guilty to a criminal charge related to Mr. Beck's 
death.
    You can be sure that going forward, OSHA will continue to protect 
your constituents from these kinds of hazards, while working with 
employers in your districts who want to play by the rules.
    The dangers of mining are well documented. However, we should not 
and must not accept a certain number of fatalities in our nation's 
mines every year as inevitable. The heart-breaking events at Massey 
Energy Company's Upper Big Branch (UBB) mine in Montcoal, West Virginia 
last year, remind us that we must stand firmly and defend the right of 
every single miner to a safe and healthy workplace, in recognition of 
our commitment to the principle that they need not risk their lives 
each day for a paycheck at the end of the week.
    The past year at MSHA has been an extraordinarily challenging one. 
I am, however, immensely proud of the work that our Assistant Secretary 
Joe Main and the whole team at MSHA have done to both respond to the 
UBB disaster and to continue the critical day-to-day work of the 
agency. All of us at the Department of Labor appreciate the support 
that we received from my good friend George Miller as Chairman of this 
Committee at the time of the disaster and in its aftermath. In 
addition, we appreciate the recent comments from you, Chairman Kline, 
recognizing the steps that MSHA has taken to strengthen enforcement 
since last April 5th.
    MSHA has undertaken extraordinary measures to ensure that it is 
using every tool at its disposal to reform the behavior of repeat 
violators. Since April 2010, MSHA has conducted more than 200 impact 
inspections across the country. These inspections target mines that 
merit increased agency attention and enforcement due to their poor 
compliance history or particular compliance concerns. The results of 
these impact inspections are cause for serious concern. While some of 
the operators pursued in our impact inspections have taken remedial 
actions to clean up their operations, MSHA continues to issue citations 
to a significant number of these operators for violations of the most 
basic and necessary safety standards. The results of the inspections 
demonstrate that despite MSHA's stepped up efforts and the memory of 
the UBB tragedy, intransigence persists in some corners of the mining 
industry.
    Last year, for the first time, MSHA sought a federal court 
injunction under Section 108(a)(2) of the Mine Act. The lawsuit was 
filed against Freedom Energy Mining Company's Mine No. 1 in Kentucky. 
The egregious conditions in that mine led us to believe that the mine 
operator was engaged in a pattern of violation of the mandatory safety 
and health standards under the Mine Act, which constituted a continuing 
hazard to miner health and safety. In fact, the operator of the mine 
agreed that it could not comply with health and safety standards at 
that mine and ended production at the mine. The lawsuit was 
successfully resolved when MSHA and Massey, the Freedom Energy 
operator, agreed to a court order that requires Massey to ensure the 
safety of miners during the shutdown process and protects the 
livelihood of the displaced Freedom miners.
    MSHA has also revamped the Pattern of Violation (POV) program to 
make it more effective and recently published a Notice of Proposed 
Rulemaking to make additional changes in the POV process. In addition, 
MSHA is moving forward with measures to improve rock dust standards to 
prevent explosions and to encourage operators to find and fix 
violations before they harm miners. We are using the funds provided to 
the Department in the supplemental appropriations bill to reduce the 
backlog of contested cases before the Federal Mine Safety and Health 
Review Commission.
    Looking forward, I can assure you that MSHA will continue its 
impact inspections and its strategic and comprehensive use of all of 
its enforcement powers. Furthermore, in 2011, we will conclude the 
investigation into the cause of the UBB disaster and will share 
whatever additional lessons that tragedy has to teach us. We have 
learned much already, from our post-UBB efforts, and first and 
foremost, have learned that if we want to truly change the behavior of 
the worst of the worst in the mining industry, as I am sure we all do, 
MSHA needs additional tools. This Committee has a proud history of 
standing up for miners and being a vigilant protector of their safety 
and health. I look forward to working with all of you in the coming 
year on using the lessons of UBB to give MSHA the tools it needs to 
better protect miners.
    Finally, I would be remiss if I did not bring the Committee up to 
date on MSHA's campaign to finally end the scourge of black lung 
disease in coal country. Last year, MSHA published a proposed rule to 
reduce miners' exposure to respirable coal mine dust. This year, MSHA 
is moving forward with public hearings on the proposed rule and will 
continue its comprehensive strategy to end Black Lung which, along with 
the proposed rule, includes enhanced enforcement, collaborative 
outreach and education and training to help prevent this terrible 
disease.
Securing Retirement and Health and Welfare Benefits
    My definition of a good job encompasses not only fair pay and safe 
conditions, but also fair benefits and a secure retirement. The 
Department's Employee Benefits Security Administration (EBSA) works to 
protect the security of retirement and other employee benefits for 
America's workers, retirees and their families and to support the 
growth of our private benefits system. In fulfilling that role, EBSA 
oversees approximately 708,000 private sector retirement plans, 
approximately 2.8 million health plans, and a similar number of other 
welfare benefits plans that provide benefits to approximately 150 
million Americans. These plans hold over $5 trillion in assets.
    This year, EBSA took many important steps to help the many who fear 
that they will never achieve a secure retirement. For those Americans 
who must rely on 401(k)-type plans to finance their retirements, the 
Department proposed a new rule to improve the transparency of 401(k) 
fees to ensure that their hard-earned savings are not unwittingly being 
eroded by unreasonable fees. In addition, we extended a helping hand to 
workers and retirees who need better information about how to manage 
their plan investments. Our proposed rule on investment advice will 
make the whole process of choosing investments more transparent and 
comprehensible. We hope to make these rules final in 2011.
    When your constituents' hard earned retirement savings or other 
benefit plan assets are put at risk, EBSA's enforcement resources are 
put to work. In 2010, EBSA had tremendous success in protecting 
employee benefits through both civil and criminal enforcement actions. 
EBSA achieved total monetary results in Fiscal Year 2010 of $1.05 
billion. Although EBSA always tries to pursue voluntary compliance or 
civil enforcements actions first, when necessary we will use our 
criminal authority. In 2010, EBSA closed 281 criminal investigations 
that led to the indictment of 96 people.
    In fact, this year EBSA initiated a Criminal Enforcement National 
Project to target the worst abusers of the trust given to those who 
administer benefit plans. The Project pursued people like Gary Merritt, 
Vice President of Bemcore, Inc., a company located in Ohio. When a 
Bemcore employee left the company and sought to move the balance of his 
401(k) account at Bemcore to an IRA, Mr. Merritt instead deposited this 
employee's life savings into a Bemcore account and then spent the 
money. Mr. Merritt pled guilty to one count of embezzlement.
    As with all of our worker protection agencies, EBSA tries to finely 
calibrate the type of action needed. Our Office of Participant 
Assistance is dedicated to providing compliance assistance, education 
and outreach for workers, retirees and their employers. In 2010, our 
Benefits Advisors helped more than 370,000 participants and employers 
and recovered over $164 million through informal negotiations. One 
example in Chairman Kline's home state of Minnesota shows how Benefits 
Advisors are helping your constituents. When a resident of Northfield, 
Minnesota contacted our Benefits Advisors about his employer's denial 
of his application for the COBRA subsidy provided for in the Recovery 
Act, the Benefits Advisor brought together the participant and the 
employer to work out the problem. The Benefits Advisor was able to 
determine that the denial was inadvertent--due to an administrative 
error. Together they fashioned a solution that allowed the participant 
to apply his overpayment to future premiums. EBSA will continue to 
protect your constituents as zealously in the coming year using all of 
our tools--from compliance assistant to criminal enforcement--according 
to the common sense of our professionals.
    I also intend to continue to look at issues facing defined benefit 
plans and proposals to help these plans keep their commitments to 
workers and retirees. Defined benefit plans play a critical role in the 
retirement security of millions of Americans by providing workers the 
ability to have a secure and dignified retirement. The President's 
Budget proposes to strengthen the defined benefit system by shoring up 
the solvency of the Federal agency that acts as a backstop to protect 
pension payments for workers whose companies have failed. More than 1.5 
million workers and retirees already look to the Pension Benefit 
Guaranty Corporation (PBGC) for their benefits and PBGC insures plans 
covering 40 million others. The Budget would give the PBGC Board the 
authority to adjust premiums and directs PBGC to take into account the 
risks that different sponsors pose to their retirees and to PBGC. This 
will both encourage companies to fully fund their pension benefits and 
ensure the continued financial soundness of PBGC.
Enhancing Accountability
    Another top priority for the Department in the upcoming year is to 
continue our commitment to the highest level of accountability. I see 
three main facets to our commitment to accountability: transparency, 
evidence-based decision making, and fiscal responsibility. In his State 
of the Union address, the President made clear that now is the time to 
make the hard choices to reduce our deficit without sacrificing the 
investments we need to win the future. Through smart budget choices and 
rigorous program evaluations, we can ensure that public funds are being 
used wisely and effectively.
    Our commitment to transparency can best be seen in how we set our 
strategic plan and regulatory agenda. We embarked this year on an 
unprecedented outreach effort to inform our strategic planning process. 
We directly engaged Congress, our career staff, stakeholders, and the 
general public in the process. This outreach effort was multi-layered--
not just posting a one-time notice. We conducted listening sessions in 
the field, held web chats, posted the draft Strategic Plan on our 
website, and solicited public comments to a dedicated email address. In 
addition, our staff sat with congressional staff to talk through an 
early draft of the plan and invite their input into the process. These 
efforts started early and continued throughout the strategic planning 
process. The result is strategic goals that are about workers, 
accountability, and doing what works. These goals reflect the desires 
of the American people and they guide everything we do.
    There has been much in the news lately about the efficiency of the 
regulatory process and the wisdom of particular regulations. I have no 
doubt we will this morning and in the future have a healthy debate 
about the Department's regulatory agenda and particular regulations we 
have promulgated. I welcome that exchange. What is beyond debate, 
however, is the extent of our efforts to engage a wide swath of the 
public in our regulatory process. The Department of Labor goes above 
and beyond the requirements of the Administrative Procedure Act to 
ensure that the public has a voice in our process. We are the only 
Department in the Executive Branch that has held public webchats for 
every regulatory agenda we have published in this Administration. To 
date, more than 17,400 people have participated in our webchats. That 
includes reporters, advocates for workers, business owners, and 
congressional staff. During these chats, the public has a chance to 
pose hard questions directly to our Assistant Secretaries about why 
they are or are not proposing to regulate in a particular manner. 
Anyone who tells you that we only talk to one segment of society or our 
doors are closed to a certain group is not paying attention.
    We are not afraid of scrutiny at the Department of Labor. That is 
because we are constantly scrutinizing ourselves. We have adopted a 
rigorous self-evaluation program of which I am extremely proud. By 
using data and evidence to drive our budget development and program 
planning, while constantly evaluating the impact and outcomes of our 
work, we ensure that our collective efforts are as effective as 
possible. This year, we have brought on board a Chief Evaluation 
Officer, Jean Grossman. Dr. Grossman is helping us plan and design 
rigorous evaluations to measure the impact of our programs and build 
knowledge of what works and what doesn't. She is also working closely 
with our program offices to make sure evaluation and data collection 
are carefully considered as we execute our programs.
    We are emphasizing outcome measures that will tell us by how much 
we are actually improving the lives of American workers. For example, 
our worker protection agencies will now focus on developing strategies 
that leverage our interventions to create a deterrent effect, reporting 
on compliance levels for all workplaces covered by our laws, not just 
those that are investigated in a given year, and looking for evidence 
that workers are in fact safer each year.
    In addition, we are not assuming that just because we have done 
something before it is necessarily the best way to accomplish our 
goals. We are committed to improving how we do our job. That is why the 
President's budget includes almost $300 million in Labor's budget for 
the Workforce Innovation Fund, which would be funded through 8 percent 
set-asides from the Youth, Dislocated Worker, Adult, and Employment 
Service formula programs. Programs within the Department of Education 
would also contribute to the Innovation Fund with the goal of promoting 
collaboration and the development of bold systemic reforms to improve 
program delivery and outcomes for individuals. If our Innovation Fund 
grantees can find better ways to achieve our workforce training and 
education goals, we will happily adapt our programs to take advantage 
of these new ideas.
    Accountability also means being cognizant of the difficult 
budgetary times in which we find ourselves. As I have mentioned, I have 
sat where you now sit so I know how seriously you take your 
responsibility to ensure that the Executive Branch is wisely spending 
the money you vote to give us. We have looked for duplication in our 
programs and cut where necessary. For example, last year we eliminated 
the Employment Standards Administration, which created an unnecessary 
layer of bureaucracy and interfered with the effectiveness of its 
component programs. The President's budget includes many difficult 
choices. The funding of the Workforce Innovation Fund is an example of 
having to make tough choices. When first proposed in the FY 2011 
budget, these innovations were largely funded by additions to the 
budget. This year, the proposal is largely financed out of current 
resources, by shifting resources from an underutilized, slower-spending 
set-aside within the Workforce Investment Act (WIA). In this way, we 
are putting our money where our beliefs are.
    Tough budget times also require that we look for more and better 
partners in our work to leverage and align resources to support working 
families. ETA is leading our efforts in this area. ETA will work 
closely with the Department of Education in particular to ensure that 
training and education policies and procedures are coordinated to help 
students and workers access all the services they need to obtain good 
jobs and avoid any duplication of effort between the two Departments. 
We also are working with the Departments of Health and Human Services, 
Interior and Agriculture on new opportunities for disadvantaged youth 
for summer employment that open up pathways to further education and 
career success. ETA also has an active partnership with DOE's Office of 
Energy Efficiency and Renewable Energy. Together these offices are 
leveraging investments made in information technology to help workers 
address the mismatch between skills needed and the skills available in 
the workforce by accessing sophisticated online training. Partnerships 
must not only be at the federal level, and so we are also working 
closely with partners at every level of the workforce system. For 
example, through a collaborative federal-state workgroup, ETA has 
developed a new vision and framework for connecting UI claimants to 
workforce services and getting them back to work as soon as possible.
Moving Forward Together
    As I mentioned at the outset, I believe the American people are 
counting on us to work together. I hope in my testimony you will find 
many areas where we can all agree that the Department is doing its job 
of training and protecting American workers and leveling the playing 
field for employers who play by the rules. In addition, I believe that 
there are legislative areas in which we can come together to improve 
the Department's programs.
    Reauthorization of the Workforce Investment Act remains at the top 
of my list of legislation that should be able to garner bipartisan 
support. It has in the past and it should again in the current 
Congress. The reauthorization process presents a unique opportunity to 
promote innovation in the public workforce system, build on its 
strengths, and address its challenges. We can help more workers gain a 
foothold in the middle class by making sure that they have the skill 
set to succeed in the 21st Century. The Administration's goals for the 
reauthorization of the WIA include:
    1. Streamlining service delivery--providing easy access and clear 
information to individuals and employers in need of service;
    2. One-stop shopping for high quality services--One-Stop Career 
Centers should provide access and referral to comprehensive employment, 
training, and education services across different programs and better 
utilize technology to improve customer service;
    3. Engaging employers on a regional and sectoral basis--training 
programs are often most effective when they are developed on a regional 
basis reflecting the labor market or on a sectoral basis focusing on a 
particular industry;
    4. Improving accountability--performance measures must be designed 
to hold programs accountable for better results, without creating 
incentives to deny services to those most in need of assistance, and 
results should be made available in a transparent way to all; and
    5. Promoting innovation--WIA should promote the funding of new and 
creative practices and support the replication of those practices that 
are successful throughout the workforce system.
    We stand ready to provide assistance to the members of this 
Committee from both parties as you move forward with your efforts in 
this area.
    As I mentioned earlier, I believe that we can find a way to pass a 
bipartisan mine safety bill. It has been done before and we it owe it 
to the memory of the lost UBB miners, their families, and those who go 
into the mines every day to do it again. The full resources of MSHA and 
my office are available for any assistance we can provide.
Conclusion
    We at the Department of Labor come to work every day to do our best 
to create economic opportunities for the American people. I hope I have 
shown you that we are making a difference in the lives of your 
constituents and workers throughout the country. We are:
    Providing job seekers the skills necessary to land good paying jobs 
of the future and linking employers looking to hire with Americans 
looking for work;
    Ensuring that every employer takes responsibility for the safety 
and health of all their workers and leveling the playing field for 
employers who want to do the right thing; and
    Fighting to make sure that workers are paid the hourly and overtime 
wages they have earned, that they do not encounter discriminatory 
barriers to work, and that they get the health and retirement benefits 
for which they bargained for.
    These goals may seem basic and modest, but for American workers 
they mean a life of dignity and security. We will undoubtedly have a 
vigorous debate about how best to achieve these goals, but if we can 
agree that we all want to end up in the same place--in a country with a 
robust economy that works for everyone--our debate will be constructive 
and civil. I look forward to working with you and together ultimately 
ensuring good jobs for American workers.
                                 ______
                                 
    Chairman Kline. Thank you very much, Madam Secretary, for 
the testimony.
    Thank you for encouraging a Minnesotan to escape the 
Minnesota winter and join us here, a very smart move. I know 
that in my home in Lakeville, Minnesota, we have more snow than 
we have seen in over 15 years, and it is doggone cold. So, very 
smart move.
    We have had some discussion here--the ranking member talked 
about it in his comments. We are engaged, as you know, Madam 
Secretary--you mentioned it--in a great debate on the floor 
here in the House about where we can cut money. And many of us 
think we need to cut substantially in order to get at the 
runaway government spending and reduce the deficit and, as you 
said, get the business community back to creating jobs, not the 
government.
    In this debate, we are determining priorities, and we are 
going to have differing views about what should be cut and so 
forth. And I think that is a very healthy exercise that we are 
engaged in. But budgets do have an indication of where 
priorities might be set, and so I want to address your budget, 
if I could, for just a minute.
    You have indicated your pride, and I think justifiably, in 
the work that the Office of Labor-Management Standards does on 
behalf of workers. And yet, when I looked at the budget, you 
keep the budget for OLMS about the same level that it had back 
in 2010. Yet, on the other hand, your budget increases funding 
for the Bureau of International Labor Affairs by, according to 
my notes here, almost $9 million.
    How do you justify providing new grants to labor 
organizations in foreign countries as being more important than 
funding the only organization, the only office that you have in 
the Department whose job it is to protect union workers here in 
America? It seems to me to be an imbalance. How did that come 
about?
    Secretary Solis. Thank you, Mr. Chairman.
    What I would say to you is that our funding level has 
actually, in the last 2 years, gone up back towards 2001 
funding. It is actually now being proposed at a level funding 
amount. So we really have not decreased.
    What has happened is we have actually become a leaner, if 
you will, meaner machine. And we have actually been able to 
conduct more audits, election investigations. In fact, on an 
average, I would say that, in terms of indictments and 
convictions, we are actually much higher than we were in the 
previous 2006 and 2009 average. And I have those figures for 
convictions: 130 in this fiscal year, 2010, and during fiscal 
year 2006 and 2009, it was 119.
    We are working more effectively. We are also monitoring 
elections, which I know is a big item of concern to many 
people, and especially with respect to how elections are 
conducted by unions. And I am happy to say that, in this 
instance, in 2010, we actually conducted 145 investigations 
and, in the prior year, 2006 to 2009, there were only 127. So 
we have done a remarkable job with limited funding that we have 
been given by the Congress.
    And I would say to you that we are really looking at 
enforcing the most egregious types of efforts. And let me just 
share with you, former secretary-treasurer of an ATU local in 
New York was convicted of stealing nearly $2,170 by conducting 
unauthorized ATM withdrawals and failing to deposit incoming 
receipts payable to local bank accounts.
    I would say to you also something that we are doing--we 
monitored elections in Puerto Rico. OLMS negotiated a voluntary 
settlement agreement with the union called UITICE, an 
independent union in Puerto Rico, after discovering that they 
hadn't held an election of an officer in 12 years. Quite 
remarkable for us to have to expend staff in that way.
    Your second question about ILAB, what I would say to you 
there is, because we are now at a point, I believe, in this 
administration looking at fair trade agreements and how we work 
collectively with partners that we have been working with in 
the past years, we are trying to establish better standards so 
that workers, for example in Central America, will have some 
monitoring tools on a tripartite level with the ILO, with the 
government of that country, as well as the business community.
    So let me give you an example. In a country like Nicaragua, 
they have a big textile industry. There has been a potential 
agreement to help begin a program that we call Better Work that 
actually started in the previous administration. It has been 
ongoing now for more than a decade. And what they do is try to 
level the playing field in terms of providing support for those 
individuals that are working in that workplace, many of whom 
are women, vulnerable women; taking youngsters out of that 
industry so you don't abuse children, you know, you are not 
trafficking or not using children to compile the materials that 
are eventually going to be brought back to the U.S., in many 
cases, or the world. And it is a discussion to have people then 
focus in on how you can lift the standard of living of people 
who live in that country so there won't be a magnet to attract 
them to come to our country.
    So it has different purposes and one that, I believe, has 
bipartisan support. And I would hope that we can continue to 
engage. If it is necessary for me to have my Under Secretary 
come and speak to you and staff about it, I would be more that 
happy to do that, Mr. Chairman.
    Chairman Kline. Thank you very much, Madam Secretary.
    We must have messed up the clock here. I couldn't have used 
up 5 minutes already. Could I have done that?
    Mr. Miller. It seemed like a lifetime to me.
    Chairman Kline. Seemed like only seconds to me, because the 
Secretary was very engaging, Mr. Miller.
    So I did want to follow up a little bit more on OLMS, but 
we have other Members on both sides who want to ask questions. 
So I will yield to Mr. Miller.
    You are recognized.
    Mr. Miller. Thank you very much.
    And, again, Madam Secretary, thank you for your testimony. 
I believe that you do outline a remarkable record.
    I would assume some of this foreign money also is in 
anticipation of the passage of some trade agreements. I may not 
agree with them, but it sounds to me like they are on their 
way. And the implementation of that for the business community 
and the employee community is very important.
    One of my concerns--and others will touch on the overall 
issue, but--is the impact of closing down One-Stop centers on 
our veterans. I know, I think, in your budget, there is 
additional money--or I don't know if it is your budget or the 
veterans budget--to help reintegrate our returning troops into 
the economy of this country and into the workplace.
    Many of them left straight from high school to go to Iraq 
and to go to Afghanistan and are now coming back and seeking 
skills in trades that they may not have acquired in the 
military or they have and they want to build on those skills by 
going here. And one of the big integration points that has been 
successful, apparently, is using the VETS money, the V-E-T-S 
money, to take those vets to the One-Stop centers and give them 
full exposure to the training opportunities, to the employment 
opportunities that exist in their communities, you know, where 
they came from, where their homes are.
    But I am making the assumption, I am asking you, in April, 
should these cuts go into place that are slated to go--this is 
a continuing resolution, so it would happen in March--that, in 
April, those One-Stop centers would be shut down. I assume that 
they shut down for the vets also.
    Secretary Solis. Well, it would impact a great number of 
people, including those vets that have one of the highest rates 
of unemployment, especially the returning vets from Iraq and 
Afghanistan. And they are the youngest. Their unemployment rate 
hinges around 11 percent.
    We have tried to roll out programs more aggressively to 
identify opportunities, working with the Chamber of Commerce 
here in Washington, D.C., on a national level, to try to 
encourage employers to immediately hire up these returning vets 
and create that opportunity.
    Mr. Miller. I think this would be very unfortunate. I had 
the honor, 2 night ago, of having dinner with a former Navy 
Seal, who, himself, was shot 27 times, survived, has recovered, 
and is now working with a foundation. And they are taking 
seriously injured Navy Seals and reintegrating them into 
college or the workplace. And it is rather remarkable. The 
other soldier that was with us was a Navy Seal who was injured 
and took a direct shot to the head. He is now going to be 
enrolling in college, through a lot of hard work, to become a 
history teacher. That is what he always wanted to do as a 
youngster.
    And the point is this: that, as we realize the trauma of 
the trauma that our veterans have received in terms of brain 
injuries and others, as time goes on, we are also finding out 
that there are more opportunities to reintegrate them over time 
as we are able to work with their injuries. And employment, 
obviously, is key. Many of these veterans are returning to 
their families.
    And the One-Stop centers have been a place where, instead 
of having this veteran having to run from place to place to try 
to sort out the resources to provide the training, that is the 
key to the One-Stop centers. And I just think we should be very 
concerned about the idea that the lights are going to go out in 
that One-Stop center in April.
    Let me turn to another subject, and that is, again, this 
idea that--in the hearings we had at the beginning of your 
administration was this whole question of employees not being 
paid for the work that they do and, really, the Department of 
Labor becoming a handmaiden for some of those employers, by 
covering for them and lying to the employees who were seeking 
wages that there was no question that they were due.
    And I see that--you know, I said $300 million. It appears 
to me that it may be closer to $400 million.
    Secretary Solis. Yeah.
    Mr. Miller. And I look just in your testimony, you say in 
Pennsylvania you recovered over $10 million in wages for over 
16,000 workers. In Tennessee, it was $7 million for 1,400 
cases. Throughout the country, you say $400 million, impacting 
about 52,000 cases.
    I mean, this is almost--I hate to say it--it is a little 
bit like an epidemic that was going on here, because there was 
no price to be paid for running out on the wages. And I just 
wonder, are you able to continue that kind of prosecution on 
behalf of these employees?
    Secretary Solis. Well, actually, we will be impacted if 
there are cuts made to our budget. It would also mean that we 
would have to dislocate a lot of the new investigators that we 
brought on board in the past 2 years. So we are looking at 
approximately anywhere from 300 new investigators that we hired 
up in the last 2 years to conduct compliance as well as 
outreach and, more importantly, helping those vulnerable 
workers who oftentimes aren't even aware that, in some cases, 
they are even misclassified. And that is another problem that 
we are trying to address.
    But the fact of the matter is that this is a problem. And 
it hurts our economy. It hurts those legitimate businesses that 
actually pay overtime, minimum wage, that pay into the workers' 
comp system, the disability system. That is money that is 
robbed by other workers and folks that have to end up paying 
for that through other types of taxes that are increased 
because people are utilizing services that should have been 
paid correctly by an employer to begin with.
    What we are trying to do is level the playing field, inform 
workers, but also have more compliance with business, in 
particular small businesses, who may just not understand what 
the rules are. And it is really trying to create a sense that 
the Wage and Hour division can be more of a help and not always 
the heavy hand here. And, in the past, as you know, that wasn't 
the case. People would call and make complaints; people on our 
side would not handle those complaints unless they were the 
bigger cases that came about.
    What we are doing now is strategically using our resources 
also to look at industries where we see that there are patterns 
of abuse. I gave you one example in the construction industry. 
We have problems there with people not being paid appropriately 
over time. And when there are injuries there and they are not 
covered and they are misclassified, they go to the emergency 
room, guess who picks up the tab? We do, the taxpayer.
    That is why it is important to go after these industries 
that are not playing by the rules and undercut our economy and 
then go directly to those vulnerable workers, abuse them. And, 
in many cases, because they may not be documented, they 
purposely abuse that population.
    So we are trying to clean that up, while also making the 
businesses comply with the laws.
    Mr. Miller. Thank you.
    Chairman Kline. Thank you. The gentleman's time has 
expired.
    Mrs. Biggert, you are recognized.
    Mrs. Biggert. Thank you, Mr. Chairman. Thank you for having 
this hearing.
    And thank you, Madam Secretary, for being here.
    I have a question concerning something that you and the 
Department of Labor proposed in October of 2010, and that was a 
rule that would amend the 35-year-old definition of who can be 
considered an ERISA fiduciary. And I do think that this 
proposal expands the universe of people who owe fiduciary 
duties to ERISA plans by broadening the concept of rendering 
investment advice for a fee.
    And I hope that this doesn't happen, but I think that it 
does increase liability and the cost of advice and reduce 
choice for plan sponsors and participants and IRA account 
owners. And you have had a comment period, and there is going 
to be a public hearing in March.
    But my concern really is that, after the President recently 
announced an effort to ensure regulations do not cause undue 
burdens on businesses and on customers, the Department 
redrawing the fiduciary lines at the same time that the SEC is 
considering proposing new rules under the new Dodd-Frank 
financial services law for broker-dealers in this area.
    Now, I also serve on the Financial Services Committee, and 
yesterday Chairman Schapiro from the SEC was there, and I asked 
her this question, too. Have you considered the possibility 
that conflicting standards could result from the SEC and from 
the Department of Labor?
    And I would think that it would really make sense to 
coordinate efforts with the SEC. And I asked Chairman Schapiro 
if you two had gotten together to discuss this issue, and I 
would like to know your response.
    Secretary Solis. Sure, thank you, Congresswoman.
    As you know, the standard, set definition of a fiduciary 
was actually established about 35 years ago. So it is somewhat 
outdated when you look at the new kinds of plans that we have, 
for example, 401(k), which has dramatically changed----
    Mrs. Biggert. But, really, if you would just answer the 
question first.
    Secretary Solis. Yes.
    Mrs. Biggert. Have you and Chairman----
    Secretary Solis. My staff has. My Assistant Secretary for 
EBSA, Phyllis Borzi, has been working with them. So, yes, all 
the way through, we are working with them in dialogue. And I 
know that we are going have a planned comment forum in March, 
March the 1st, so there will be more opportunity to hear from 
everyone, all the stakeholders. And we are working very closely 
with the SEC. Yes, that is an affirmative.
    Mrs. Biggert. So would you possibly submit a follow-up 
communication addressing how the proposed rule would interact 
with the authority granted the SEC under Dodd-Frank?
    Secretary Solis. To the extent that I can give you as much 
information, I would be happy to do that and have my Assistant 
Secretary respond, absolutely.
    Mrs. Biggert. Okay. Thank you.
    Then, you know, as people are really taking more ownership 
of their savings--I think we actually have people trying to 
save more money now--investor education has become even more 
critical. And the Department's proposal appears to make it more 
difficult to provide investment education without substantial 
risk that the activity would later be determined to constitute 
fiduciary advice. And this would restrict access to much-needed 
investment education and guidance.
    How can we ensure that the Labor fiduciary rule and the 
ongoing efforts in the SEC are aligned and help offer investors 
more, and not less, education and guidance on planning for 
retirement?
    Secretary Solis. Well, I have the belief that what we are 
attempting do in this administration is really provide more 
opportunity, more transparency, and more options for the 
particular individuals that would benefit from these types of 
plans, and making sure that the fiduciary--that there is a 
responsibility in making sure that that information is 
transparent and that there is no conflict of interest. That is 
what the purpose of this particular rule is, to look at that, 
to make sure that it is unbiased investment advice.
    And I know that creates some possible concerns by the 
industry itself, but this is something that I believe consumers 
are owed. And because we have found in the last few years that 
there have been problems in this industry, this is a way of 
helping to address that information and make it more 
transparent.
    And I definitely will work with you. I would like to follow 
up with you and with my staff.
    Mrs. Biggert. Thank you.
    I yield back.
    Chairman Kline. Thank you.
    Mr. Kildee, you are recognized.
    Mr. Kildee. I thank you, Mr. Chairman.
    Madam Secretary, about 30 years ago, the merchants in the 
largest mall in my district called me to come out and have a 
meeting with them. They begged me not to increase the minimum 
wage. They said that the minimum wage would ruin many of them 
if that were to happen. I disagreed with them and came back and 
voted for the increase in the minimum wage.
    But within a year, less than a year, they called me for 
another meeting and pushed me to vote for the appropriations 
for the TAA, because the TAA requires an appropriation, and the 
Appropriations Committee was rather slow on that. And they were 
rather angry that we were not pushing. And I told them, you 
know, I was pushing it very, very hard. And we did, indeed, 
increase the TAA, or appropriate the money for it.
    They could see the link between, themselves, minimum wage 
and their profit, by they could not see any link between 
workers having purchasing power and their success.
    Can you tell that, in addition to how individual workers 
are helped by TAA, how the economy is helped by the TAA?
    Secretary Solis. Thank you, Congressman Kildee.
    The TAA program, as you know, was not passed by the 
Congress, and, therefore, it is expired, at this point. 
Unfortunately, we have come up with a decision that says that 
we believe we can still move forward, but we are going to need 
legislation to help restore that program.
    What happened since 2009 is that we actually were able to 
help certify workers, over 400,000 in the year 2009, and that 
approximately allowed for 170,000 workers, who may not have 
been eligible, to be eligible for TAA, especially during this 
recession, because we had the additional ARRA moneys available.
    TAA provides, also, a safety net for health care. So many 
people that lose their health care because they lost their job, 
because their job went overseas or was outsourced, provides a 
safety net in terms of COBRA, so people could have assistance. 
They also, in some cases, get a wage. And they also get 
training assistance.
    And I have seen it work very well in places that have been 
hard-hit, whether it was in Florida, for example, with the 
discussion about closure of NASA and that particular industry, 
helping to provide a safety net for people who had to start 
looking for new jobs or people that were dislocated.
    The perfect example that I look to is in my own home State, 
in Fremont, with the NUMMI plant, the auto plant that was 
closed there, Toyota; 4,200 workers lost their jobs. We were 
able to help provide, in cooperation with the local workforce 
investment boards there, to come together and help these people 
find training, but also be able to draw down some assistance so 
that they wouldn't be forced out of their homes or could 
continue to pay rent for where they were staying.
    This is a tremendous help for many people who have been 
impacted. I would urge the Congress to think seriously of 
passing and restoring the TAA program. It has been around for 
many years, and it has had bipartisan support. So I am not 
quite understanding why we haven't been able to do it, but I 
hope that we can work together on that issue.
    Mr. Kildee. Thank you very much.
    What effect will the draconian cuts, particularly in OSHA, 
have on the economy?
    And what effect will it have on the Web site? You know, 
knowledge is power, and the more power that the worker has, the 
more he or she can help themselves access certain programs.
    Secretary Solis. Well, Congressman, what it would 
immediately do is push off us promulgating any new standards. 
That is number one. There could be a potential layoff of the 
new staff, many of the new staff that we brought in 2 years ago 
as a result of ARRA funding. So we are looking at, perhaps, 
possibly, the range of 415 new hires and investigators that 
were brought into OSHA. That would include 200 inspectors and 
17 whistleblower investigators that would also be impacted. In 
addition, that would also mean 8,000 fewer workplace hazard 
inspections conducted by States. That is not the Federal 
Government. And, in addition, it would also, overall, 
throughout the country, impact about 18,000 fewer inspections 
in total. That is just to give you an indication of what would 
happen there.
    With the elimination of the Web page, as you asked, that 
also would cut off, I think, a lot of assistance that is 
provided for millions of workers but also for small businesses 
that look for compliance assistance. I think that is the 
second-highest-rated Web site that is used by the public in the 
Federal Government, is what I am told by my Assistant Secretary 
of OSHA.
    Mr. Kildee. Thank you, Madam Secretary.
    Chairman Kline. Thank you. The gentlemen's time has 
expired.
    Dr. Roe?
    Mr. Roe. Thank you.
    Thanks for being back.
    Madam Secretary, how many times have you met with the 
President one on one to discuss labor and jobs issues since you 
have been in office?
    Secretary Solis. I have met with him several times, in 
fact.
    Mr. Roe. One on one, where you discussed the labor issues 
of this country, not in a group, a large group? Where you went 
in with your staff and met with the President individually?
    Secretary Solis. I think that I would tell you that I have 
had several opportunities to talk to him when we have been in 
private locations, when we are visiting.
    Mr. Roe. But, not to interrupt you, but, I mean, to have a 
meeting set up where you are going to discuss labor issues with 
the President of the United States.
    Secretary Solis. We have had--we have had several meetings.
    Mr. Roe. The second question I have is, the Federal 
Government--there is an article in USA Today--the Federal 
Government spends about $18 billion a year on 47 different job-
training programs run by 9 different agencies. And all but 3 
programs overlap with others to provide the same services to 
the same population, according to the GAO--this is not me, but 
this is GAO--and found that little is known about the 
effectiveness of the programs because half haven't had a 
performance review since 2004, and only 5 have ever had a study 
to determine whether job seekers in the program do better than 
those who don't get in the program.
    So it would be like, you know--have you done anything to 
pare down this huge, enormous bureaucracy into something more 
manageable?
    Now, we certainly know that there are programs that work. 
And I think you can show they do. But I will bet you there are 
programs that overlap that don't work, that don't give you much 
bang for your buck.
    So have you done an overall review of the Department of 
Labor and looked and say, how can we put these together to be 
more efficient? It doesn't sound like it has happened.
    Secretary Solis. Well, I would tell you that, yes, it is 
happening. And we conduct reviews and evaluations internally of 
our programs. And the minute I became Secretary, I asked for 
reviews of all of our training programs.
    And, as you can understand, this will now be my second 
year, but we are looking at trying to make sure that we catch 
things that we know--for example, if there are problems with 
acquisition of equipment or things of that nature, things that 
haven't appropriately been conducted, or training that perhaps 
may have not been reported accurately by our contractors----
    Mr. Roe. We have 47 programs that overlap. And it is 
confusing. I have been a mayor of a city and trying to figure 
out what we can use.
    Have you looked at that and done away with any of them and 
said, these are just not effective, they don't work, and let's 
combine into WIA or something that does?
    Secretary Solis. Well, I would say that not all of the 
training programs that you are talking about are under the 
Department of Labor. But we have made an effort to work and 
coordinate, for example, with programs that deal with summer 
youth. And I know, at many levels, the locals have a lot of 
responsibility, also, for helping to implement the money that 
goes to the State or goes to the local county or the city.
    And trying to minimize duplication a big priority for us. 
That is why we have a whole new evaluation--a chief evaluation 
officer that is also looking to see how we could make strategic 
movements and amend some of our resources.
    But I think this is where WIA reauthorization really comes 
in. Because I do believe we can streamline, I do believe we can 
do a better job and, kind of, look at how we structure that 
program so that we don't miss the boat, that we really connect 
to the employers and the businesses and make sure that we are 
not duplicating our activity.
    Mr. Roe. A year from now, are we going to be here--could we 
have this meeting a year from now and say there has been 
coordination of these agencies? Because I think there is a lot 
of redundancy in these.
    And I will go to the next question I have. I have been an 
employer for over 30 years, and I worked and--was on the 
pension committee. So I am very familiar with ERISA, and did 
this for about 30 years.
    And here, as an employer, are some of the frustrations that 
we have. It is when you--and the President said he wanted to 
cut down the rules and regulations, and I could not agree more 
with him. We have OSHA, and we have TOSHA, which is Tennessee's 
department. We have workers' comp, ERISA, Family Medical Leave 
Act, Affordable Care Act, Department of Labor, Medicare, 
Medicaid. I mean, all these things have burdensome rules, and 
it makes it almost impossible to run your business.
    And back to Ms. Biggert's comment a minute ago, I think it 
is--in the financial sector, they are having the same problems 
we are, not knowing whether to follow the SEC rules, whether to 
follow ERISA rules, what to follow. So it is the confusion in 
these different agencies that don't coordinate.
    And these rules I have just gone through here, I could give 
you example after example about how it cost our business money. 
And, quite frankly, I look at OSHA as a heavy-handed 
organization. And, I mean, I view them as somebody not to help 
me but that can hurt me and not improve safety in my shop.
    Secretary Solis. Well, Congressman, I would say to you that 
one of our goals is providing for retirement security through 
our EBSA, you know, agency there. And what we have been able to 
do is--one is emphasize participant assistance, so that is to 
give information, transparency for people who participate in 
the programs, but also enforcement, because we know that there 
is a lot of fraud, quite frankly. And I think that the public 
realizes that we have to have tools to be able to detect when 
there is fraud and abuse.
    And that is pretty much where we are coming from. And I 
would very much like to have the opportunity to ask my 
Assistant Secretary, Phyllis Borzi, to come in and meet with 
you personally to talk about any of these issues where you 
might have concern.
    Mr. Roe. Thank you.
    I yield back.
    Chairman Kline. Thank you.
    Mr. Payne?
    Mr. Payne. Thank you very much.
    It is really a pleasure to see you here. And, you know, I 
commend you for the outstanding work that you have been doing.
    And I think that it is important that our Nation continues 
to protect its workers. You know, we are the top nation in the 
world because we have a concern about people. And I think that 
many of the laws, although business people say how intrusive 
they are because, you know, an OSHA inspector will come in and 
say, ``This employee should have on earplugs because it is more 
than 85 decibels,'' is a nuisance.
    I think that, unfortunately, many businesses feel their 
only responsibility is to their stockholders or to their 
investors. Therefore, they must make the most profit that they 
must do. And, therefore, they are going to take the shortcuts.
    And I think that, you know, if you get into the philosophy 
of government, John Locke and Jean Rousseau, they talk about 
whether, you know, you have to impose constraints on people. 
Because if you allow business to simply have a system where 
everything goes, then we get back to the way it was with the 
robber barons and when we had children working in factories and 
people working 12 and 14 hours without overtime.
    So, unfortunately, because business--and I am not a 
businessperson; I have been a worker--but, evidently, 
businesspeople feel that we shouldn't have taxes, shouldn't 
have regulations, we ought to do what we want to do, because 
our responsibility is to the bottom line.
    And I can appreciate that. As a union person, my whole 
argument was, I think we should protect workers against things 
that--as a matter of fact, we are having more deaths in the 
construction industry in the New York-New Jersey area than we 
have had in the past years.
    We have faulty equipment. We have had equipment that people 
knew was inappropriate, and deaths have come about. So when we 
hear about how we can't make a dollar in the U.S. because of 
all of these labor and government constraints, I think that the 
thing is being blown out of proportion.
    Let me just ask a quick question about community college 
programs. We have heard a lot of discussion about employers who 
are struggling to find workers with skill sets required for 
today's challenging job markets in spite of high unemployment 
rates. As a result, nontraditional students, which includes 
adults and dislocated workers, are enrolling in community 
colleges at record rates, making up the largest pool of 
students in such schools.
    Yesterday, representatives from a community college in my 
district shared their excitement for the current competitive 
grant program for community colleges from your department. Can 
you expand on these opportunities, as well as the Department's 
overall strategy for helping community colleges meet the 
educational and training needs for students and employers to 
improve job growth?
    Secretary Solis. Thank you, Congressman Payne.
    We have, in the past few weeks, put out a solicitation for 
grants for TAA career community college opportunities. And that 
money has been set aside to help provide for expansion and 
retention for programs at community colleges that partner with 
businesses. So every aspect of the program has to include an 
employer, and it has to look at programs that are worthy of 
expansion.
    So we hear oftentimes of the impaction of programs 
occurring in the nursing industry, where you have so many 
candidates that want to get into nursing but there aren't 
enough slots. I have heard heartbreaking stories of people who 
had to wait 5 years to get into a nursing program at their 
community college.
    And, with this money, it will help to drive that expansion, 
so that capacity building, acquisition of equipment can be 
handled. And new areas that need to be expanded, so high-tech, 
renewable energy, those sources of new fields in the green 
sector can also be expanded. That is, I think, a shot in the 
arm for community colleges, especially right now.
    I look at my own State of California, where there is a 
budget crisis and where the first hits are going to be lodged 
at the community colleges. Every State that participates will 
receive an amount of money, but it has to go through the 
community colleges. And they should partner with other groups 
that are nontraditional, community-based as well. They can 
partner also with, obviously, businesses through the WIA 
boards.
    But it is an opportunity, I think, for people to begin that 
discussion and to really make decisions at the local level, not 
be driven by the Federal Government, but what is needed at the 
regional level. So, say there is an opportunity to create 
lithium batteries in Ohio, and there is a community college 
system that knows they have a need for the equipment. They have 
a class size, but they need to expand that more because there 
is a big need. Those are opportunities that are going to 
benefit the local participants, but, more importantly, be able 
to grow to capacity.
    And I think, again, that is an important program. And I 
hope that the Congress will understand that we need to preserve 
that program. Because my understanding is that there have been 
proposals to cut back in the fourth year of funding for that 
program.
    Chairman Kline. I thank the gentleman.
    Mr. Walberg?
    Mr. Walberg. Thank you, Mr. Chairman.
    And thank you, Madam Secretary, for taking our questions 
and our concerns, as well.
    I represent a district in Michigan right next-door to where 
you had the opportunity to tour the GM plant. I have a Chrysler 
proving grounds. I have probably the newest and finest GM plant 
in Delta Township, up near Lansing, in my district, that I 
believe makes the cars people want to buy there.
    But we also, in my district, have 11.7 percent 
unemployment, on average. In several counties in my district, 
there is upwards of 15, 16 percent unemployment still. So, 
truly, it is an issue where there has to be concern about 
employee safety, but also employee employment and the success 
of businesses that are enabled by having reasonable and 
understood regulation that goes through.
    And so, Madam Secretary, OSHA recently pulled back two 
proposals, as you know, a noise standards and musculoskeletal 
disorder proposals, citing the need for more study on how these 
proposals would affect small businesses and to better 
understand, as they said, how these would impact business.
    The question I would like to ask first for you to respond 
to is, can you explain how these proposals were put forward 
without clear understanding of the harmful economic impact on 
businesses and, I would hasten to quickly state, concurrently 
on employees as well, with little to show for improved worker 
safety?
    Secretary Solis. Thank you, Congressman Walberg.
    I would say to you that the reason why we pulled both regs 
back is because we know--we heard, we had a lot of comments 
from the business communities, as well as from other 
stakeholders, and we felt, again, in our best interest, that we 
take our time with getting more information from those groups 
that would be affected. I think that is the right thing to do--
--
    Mr. Walberg. Forgive me. I guess the key question is, if, 
indeed, you came to the conclusion that we needed more time and 
needed to take more care, why wasn't that the first order?
    Secretary Solis. Well, we do take in comments. And it is 
not to say that we close those comments off. But I would tell 
you that we are making every effort to make sure that we work 
with the Small Business Administration advocacy office, as we 
plan to do, and have more comment from the public.
    So it is actually taking a step in a direction that will 
allow for more thoughtful discussion from all stakeholders and 
from employees, as well. Because we equally get a lot of 
concerns and letters from people who feel that we should be 
moving forward. So we also have a lot of, how could I say, 
interest on the part of those employees that feel, why are we 
not taking action when we know that there are certain issues 
out there that are impacting them currently on the job.
    Mr. Walberg. Thank you.
    Secondly, last year, the Department rescinded the final 
regulations concerning union financial reporting on Form LM-2. 
That was promulgated by the past administration. And, as I 
understand it, the rescinded rule would have increased the 
information provided by large unions on Form LM-2 that they are 
required to file about parties buying or selling union assets 
and the compensation of union officers and employees, and it 
would have required considerably more detail and itemization in 
these categories than under the 2003 rule.
    And so, can you explain to me why the Department rescinded 
the final LM-2 rule issued by the prior administration and how 
that doesn't mean less information and less transparency for 
rank-and-file union members about how their dues are spent?
    And I ask that with the context that, since 2001, OLMS, 
using information from LM-2, 900 convictions and $93 million of 
court orders were issued in restitutions to workers. And that 
is a concern. And that is their benefit. So I am concerned that 
we would rescind those rules. Why?
    Secretary Solis. We rescinded that rule because we found 
that it was duplicative in nature, and we were already 
receiving information that was already fulfilling its purpose. 
So there was no need to burden and provide more paperwork for 
information that was going to be made public anyway. And that 
is, quite frankly, our position.
    And I would tell you that, even though we have restructured 
the OLMS office, I did talk about the fact that we have 
actually been able to indict more individuals, bring more 
criminal prosecutions, and conduct, I think, a more robust, 
concentrated effort, where we are really looking at the bad 
actors. And I mentioned some of the folks that we were 
successfully able to prosecute--some, I mentioned earlier, in 
New York. There was a case also in New York, CWA Local. Someone 
there, a former president of CWA in fact, was guilty of 
embezzlement; $200,000 to $400,000 was taken. And we were able 
to handle some of these very large cases.
    So I don't think we have pulled back from our enforcement. 
What we are doing is trying to make sure that we have a level 
playing field, that all have access to information. And 
transparency is first and foremost in our mind.
    Mr. Walberg. Thank you.
    I yield back.
    Chairman Kline. I thank the gentleman.
    Mr. Andrews?
    Mr. Andrews. Thank you, Mr. Chairman.
    Madam Secretary, we are very proud that a young woman who 
sat at the kitchen table, worried about how to pay for her 
education, now sits at Cabinet table. We are very proud of you 
and proud of your service to our country.
    Let's say that a constituent of mine runs a supermarket, 
hired a teenager this morning, 17-year-old, and had a question 
about what he was able to have her do, as far as duties in the 
store with respect to certain worker-safety standards. Could 
that supermarket owner call your department and get an answer 
to that question?
    Secretary Solis. Absolutely. And we are encouraging it, in 
fact.
    Mr. Andrews. And so, they wouldn't have to hire an attorney 
or they wouldn't have to spend money on something; that there 
is a Web site, I assume, that they could go to with some of 
that information?
    Secretary Solis. Our OSHA division, I think, has done a 
terrific job in making information accessible to everyone, in 
fact, for, in particular, business owners, small business, 
grocery types, many are immigrants. Many don't have a good 
command of the English language. So we also provide information 
and tools to them in their language that is more accessible and 
more appropriate, for them to understand our laws.
    Mr. Andrews. I know this, frankly, is the Korean-American 
grocer in Camden, New Jersey, that I represent. It is the 
bodega and many others. There is a Polish market in one of my 
communities--Lithuanians.
    Now, I understand that the budget on the floor today would 
cut nearly $100 million from OSHA's budget, almost a 40 percent 
cut, because you have to cut that by September 30th. So, in 
other words, if this becomes law, you would have to cut about 
40 percent of what you spend in OSHA to get to the end of the 
year.
    Would there be somebody to answer that call from the 
supermarket owner this morning if you had to do that 40 percent 
cut?
    Secretary Solis. I think, well, if that happens, we are not 
going to have that Web site available and that information, and 
we definitely will have fewer staff available to----
    Mr. Andrews. But my understanding is that one of the cuts 
that is proposed, which is the technology and information 
account, is the account from which the Department's Web site is 
run.
    Secretary Solis. That is correct.
    Mr. Andrews. So you wouldn't have the personnel to update 
and run the Web site.
    Secretary Solis. That is correct.
    Mr. Andrews. What other kinds of changes would it mean if 
you had to reduce your budget by 40 percent between now and the 
end of the year? What would it mean to the taxpayer who is 
sitting at home watching you testify today?
    Secretary Solis. Well, I think you would being seeing that 
there may be more injuries taking place. And, obviously, that 
has a cost to business, for the business owner but also for 
society if they are not given coverage, if there is no 
insurance or health insurance available. That also would have a 
devastating impact.
    Mr. Andrews. I assume that you get a number of complaints, 
I am sure, that are not valid, that perhaps a person who has a 
grudge against her employer, his employer calls and make an 
accusation, and you go out and look at it and find out that 
there is nothing wrong. I assume what would happen is you 
wouldn't be able to investigate those claims as quickly as you 
do right now. Is that right?
    Secretary Solis. That is correct. And I would tell you that 
one of the things that happens with OSHA is that, in many 
cases--and you don't hear about this regularly--is that we will 
sit down and we will negotiate with the business owner. And 
oftentimes it doesn't lead to a particular citation or penalty 
because there was or will be corrective action. If they 
participate also in our consultation or our programs that 
provide compliance assistance, we will look at that favorably. 
So those are things that the business community may not be 
aware of.
    Mr. Andrews. Let's pursue that for a moment. Let's say that 
there is what--and Mr. Kline will want to pay attention; this 
is a lawyer's phrase coming--a de minimis violation, where 
someone in----
    Chairman Kline. Is that Latin or Greek or----
    Mr. Andrews. It is Latin.
    Chairman Kline. Oh, Latin. Okay.
    Mr. Andrews. Yes, it is. It is Latin. It is high mass.
    But let's say there is a de minimis exception. Notice is 
not posted on a bulletin board or something of that nature. It 
is your practice, as I understand it, to try and negotiate that 
out and perhaps just write a letter saying, ``Please put the 
notice up.''
    Would you have the personnel to have those negotiations as 
frequently or as quickly?
    Secretary Solis. Probably not.
    Mr. Andrews. Which I assume would lead to worse outcomes.
    I just want to make the point that a reckless cut like this 
obviously has a severe impact on the Department, and that is 
regrettable. But it has an impact on the public: on the 
supermarket owner who wants to make that call, on the worker 
who is working in unsafe conditions, on the employer who has 
been wrongfully accused and wants to get the matter resolved 
more quickly, or the employer who maybe wants to have a 
negotiation so you don't turn a molehill into a mountain.
    And my sense is that the cuts that have been proposed would 
really impair what you are trying to do. We are going to do 
what we can do to make sure that you don't have to deal with 
them.
    Thank you, Madam Secretary.
    Chairman Kline. I thank the gentleman.
    Dr. DesJarlais?
    Mr. DesJarlais. Good morning, and thank you for being here.
    It was great that you bring us good news, at the beginning 
of the hearing, that we have 600,000 new jobs to report. Can 
you tell me how many of those were private-sector and how many 
were government?
    Secretary Solis. I would tell you that, on the payroll 
survey, we reported that there were about 50,000 jobs. And that 
is based on the payroll figures.
    The household survey that I am talking about, the 600,000, 
are actual calls that the Bureau of Labor Statistics makes in a 
week and they call into different households. And what happens 
there is we are finding that people are attesting to their 
self-employment. That is, they gave up on an employer hiring 
them, and they are starting their own business.
    That is why I think it is also important to make sure that 
we have training available so people can start up their 
businesses legitimately and know how to do it and have a 
business plan and understand what the tax structures are.
    But, secondly, I would say that what we are finding also is 
that those 600,000 people came on-line, in terms of having 
jobs. They weren't employed before. Some of them also had two 
jobs. You find that there are people that had, say, a second 
job during the holidays, working at a department store, they 
gave up that job and now are working full-time at the job that 
pays them a lot better salary.
    Mr. DesJarlais. Okay.
    Secretary Solis. So we are seeing that transition that is 
occurring right now. Some of that will play itself out as we go 
through and readjust our numbers. And every month they have 
actually been going up when they are readjusted, almost 10,000 
to 20,000 jobs additionally, that were lost originally when 
they were not calculated, that now get put back in by the BLS.
    Mr. DesJarlais. Okay. Thank you.
    Turning to MSHA, recently a media outlet examined a 
December 22nd, 2010, MSHA press release highlighting 22 impact 
inspections. In the release, Assistant Secretary Main was 
quoted saying, ``MSHA's impact inspection program is helping to 
reduce the number of mines that consider egregious violation 
records a cost of doing business.''
    At least two of the mines were erroneously placed on the 
list, which MSHA attributed to coding and clerical errors. If 
the Department believes that regulation by shaming is one way 
to achieve workplace safety, what is the Department prepared to 
do when it makes mistakes like this?
    Secretary Solis. I would say that what we have attempted, 
under our Assistant Secretary there, Joe Main, is to really 
take a good view at where those most egregious coal-mine 
operators are and try to get to those places, so that we can 
also give those folks, the operators, information about what 
safety plans they have in place, where we see hazards, and try 
to prevent that.
    We actually have a new tool that is available. We call it 
the pre-contest safety tool. And what it allows is for cases to 
be settled in a preconference mode before there are actual 
penalties or citations issued. And that is a good tool that is 
just coming about because of what happened at the Upper Big 
Branch explosion, where 29 miners were killed last year, April 
the 5th.
    Mr. DesJarlais. How many people work for MSHA?
    Secretary Solis. I would say we about roughly maybe 400. I 
could be off, give or take. But it is not as big an agency as 
you would think. But they are working more strategically.
    Mr. DesJarlais. Does the agency fund itself with its fines 
that are levied?
    Secretary Solis. Those fines help to provide for--I would 
have to get back to you, to give you how that breakdown is.
    Mr. DesJarlais. Okay. I have had some complaints from my 
district that that occurs, and sometimes they actually have 
said what they see is kind of a good-cop/bad-cop-type 
situation, where an agent will come in and they will say, 
``Well, you know, I am the easy guy.'' And they will only fine 
him a little bit. But when you get the guy next week, he is 
tough, and he will fine them a lot. So, you know, if that is 
true, that may not be the greatest policy, at least in terms of 
the miners.
    Do you know, when there is an accident like the one you 
spoke of in Virginia, does MSHA view that as a failure on 
themselves, or is it always the mine's fault when you have a 
tragic accident?
    Secretary Solis. Well, I could only speak to the time that 
I have been on board and as long as my Assistant Secretary has 
been in place there. And what we have attempted to do, as I 
said, is really go out and do these impact studies to look at 
the more egregious mines, but also trying to extend more 
information to those other mines, the metal mines also, that--
--
    Mr. DesJarlais. Excuse me, I am sorry to interrupt. I know 
we are running out of time. Have we seen a pretty significant 
decrease in accidents, mining safety records over the past 
decade with intervention?
    Secretary Solis. I would is say that, over the course of 
the last 2 years, that we have helped to provide more 
prevention. Because I believe there is that culture that is 
changing, in fact, because of what happened at the Upper Big 
Branch. I believe that more mines are being more proactive.
    And we are trying to standardize what our inspectors do, as 
well, so you don't have that incident that you said, where 
someone comes in one day and charges a fine that is less or 
higher. We want conformity, and so we are doing our very best 
to make sure that all our field investigators have the best 
training and that we are working with industry to do that. 
There are a lot of good actors out there, and we want their 
stories to be told, as well.
    Mr. DesJarlais. Thank you for your time.
    Chairman Kline. I thank the gentleman.
    Ms. Woolsey, you are recognized.
    Ms. Woolsey. Thank you very much.
    In response, Madam Secretary, to what happens with the OSHA 
and MSHA fines, it is my understanding that these fines go 
directly into the U.S. Treasury and the agencies do not even 
touch them.
    And I would like to say as an aside, the fines are so 
minimal, they wouldn't have covered anything anyway, unless we 
brought those fines into the 21st century.
    Well, what a relief it is to have you here with us, 
Secretary Solis, and have you at the helm of the Labor 
Department, a department that is responsible for fairness and 
safety for workers--and, by the way, responsible for supporting 
businesses, because you are so obviously dedicated to improving 
and making sense out of the concerns of our workers and our 
employers regarding work-life concerns and regulations. Thank 
you very much. You have brought some clarity to us today.
    I thought and I felt really confident in the last Congress 
that we were on our way to bringing OSHA and MSHA into the 21st 
century, working with your department and with the House and 
the Senate. But now, and particularly this week when we are 
debating the Republican continuing resolution in the House, I 
fear that these spending cuts that we have been talking about, 
most of us, this morning would have an absolutely devastating 
effect, particularly on the health and safety of our workers.
    I don't know how we can bring OSHA into the 21st century if 
we don't have the wherewithal to make it happen. In fact, my 
concern is that we may be backing ourselves into the early 20th 
century and we will have gone nowhere by the end of this 
Congress.
    So, in order to maybe make me feel better, if you can 
possibly--some of the issues we were working on last year, and 
we learned so much in our hearings and we got such good input 
from outside of the Congress and from the Department of Labor--
where can we go with bringing OSHA into the 21st century and 
enacting a more vigorous law to protect our workers?
    Where are we going with the misclassification of 
independent contract workers, so we can level the playing field 
for the employers that actually play by the rules?
    And how are the mine safety laws coming into effect?
    I mean, is there a way we can do this? One, if we don't cut 
your budget 40 percent? I mean, that is the obvious answer. We 
can't do that. But how are we going--can we work together in a 
bipartisan way to make these things happen?
    Secretary Solis. Congresswoman Woolsey, I think at the 
beginning of my statement I said that I am willing to work 
across the aisle to achieve the goals to help provide for a 
recovery, but also underscoring the importance of having worker 
safety and protections in place.
    It is going to be difficult, given the proposals that have 
been presented by the Congress to cut back so dramatically. I 
hope that we can come to some agreement on what should be done.
    And I do believe that the path that we are going down with 
respect to MSHA, all the success that this committee has had--I 
mean, we had an on-site hearing out in West Virginia after the 
Upper Big Branch mine explosion, and I thought there was a good 
level of discussion, hearing not only from people that were in 
the industry but also some of the causes of that.
    And I think that it is the job of the Congress to help us 
move legislation so that we can rectify where there are 
problems, where we have violators that actually skirt the law 
and are able to game the system and, thus, create a bigger 
backlog. And they contest many of those violations. We never 
are able to get to them. In fact, we got assistance from you, 
the Congress, to have a supplemental fund to help address that 
backlog, but I am here to tell you that, even with that, it is 
not enough. And if we cut that back, then it will eliminate the 
casework that we are doing even now, as it reflects the ongoing 
investigation with the Upper Big Branch.
    So there are consequences to what we do. I would hope that 
we could work with the chairman here and also with folks in the 
Senate that are interested in addressing MSHA.
    And then, secondly, on the misclassification, there are 
scores and scores of details about how people are not 
appropriately told that they are misclassified. They find out 
perhaps at the end of the tax period or they find out when they 
are injured that they have not been receiving appropriate 
information so they could make those adjustments to have 
health-care coverage or to know who is paying in for their 
workers' compensation if they get injured on the job.
    We know that this is something that goes across all 
industries, misclassification. And it hurts because it doesn't 
provide the type of revenues that the Federal Government and 
State governments are robbed of that help to provide these 
structured programs that help to keep people safe and provide 
assistance that people so sorely need. So that is a big 
initiative on our part.
    And I would just say, with Wage and Hour, it would 
devastate if there are further potential cuts there, because we 
done such, I think, a good job in targeting, with the limited 
resources, to go after those industries where we know there are 
the most egregious violators and people that really do need to 
have the information. It isn't just going after the business; 
it is also empowering the employees to understand what rights 
and protections they have in place.
    Chairman Kline. The gentlelady's time has expired.
    Mr. Rokita?
    Mr. Rokita. Thank you, Mr. Chairman.
    Thank you, Secretary, for coming.
    Dr. Bucshon, my friend to my right here, and I are both 
from Indiana. We are very concerned about MSHA and some mining 
regulations. I would like to, Mr. Chairman, yield a minute of 
my time to Dr. Bucshon.
    Mr. Bucshon. Thank you, Madam Secretary, for coming.
    I am concerned about MSHA's proposed regulation concerning 
respirable coal dust. To give you a little background, my 
father was a united mineworker for 37 years in an underground 
coal mine. Both of my grandparents were coal miners. I 
understand exposure risks, and I also understand that--I am a 
physician, and I see a lot of patients with workplace-related 
respiratory problems, some of which are, to put it bluntly, 
their own issue because they refused to wear safety equipment, 
regardless of whether there were regulations in place to do so 
or not.
    My understanding is that this potential regulation may cost 
the industry about a billion dollars. And I would like to know, 
since the stakeholders requested the data that you used to 
establish this and were denied that information, what are the 
assumptions that MSHA made in coming up with this new 
regulation, when, from my perspective as a medical physician 
and understanding the coal industry, I don't see what the 
really big push for regulating this was at this time?
    The other thing to know is, in a coal mine, most of the 
exposure is not actually to coal dust but it is to silica dust 
because of rock dusting of the coal mine walls.
    So I would like you to comment on the assumptions and why 
you guys feel like that this is something that needs to be in 
place.
    Thank you. I yield back.
    Secretary Solis. Thank you, Congressman.
    I would just refer you back to a promise that was made 40 
years ago by the passage of the Federal Coal Mine Health Act 
that was passed in 1969 to eradicate black lung disease. And 
what we are finding is that it kills hundreds of miners, and 
former miners each year are severely impacted and impaired. And 
we are also finding that there is a rise even amongst young 
miners. So there is cause for concern.
    We know that we have to work with industry, and we 
certainly want to hear their comments. I am not opposed to 
that. But I would tell you that I think that black lung disease 
is one that has not been dealt with by this Congress for many 
years. And we believe that now is the time to act and to work 
as best we can with the industry.
    I don't recall hearing this figure that you threw out, but 
I will certainly get back with my Assistant Secretary, Joe 
Main, and ask him to come and speak with you directly to tell 
you about exactly how we arrived at----
    Mr. Rokita. Thank you, Madam Secretary. I appreciate that. 
Reclaiming some of my time, do you plan to make the underlying 
assumptions available to the industry?
    Secretary Solis. I will discuss this with my Assistant 
Secretary, Joe Main. And we can have that discussion, surely, 
with you and the other congressmen here.
    Mr. Rokita. When can you get back with me on that decision?
    Secretary Solis. I will get back to you once I speak to my 
Assistant Secretary and we arrive at what parameters we can 
consider.
    Mr. Rokita. I know. Can you give me a day or time frame? A 
week, a month? How long before you think I would hear on your 
decision on whether or not you are going to make your 
underlying assumptions public?
    Secretary Solis. I have to ask my Assistant Secretary 
when--I mean, we can certainly push this as soon as we can. I 
will make that commitment to you.
    Mr. Rokita. A week?
    Secretary Solis. Can't put me on record for that because 
I--you know, I----
    Mr. Rokita. I mean, how long does it take to talk to 
someone that works under you?
    Secretary Solis. It doesn't take that long.
    Mr. Rokita. Okay. So maybe----
    Secretary Solis. I am not trying to shy away from----
    Mr. Rokita. So just give me a time frame. A week, a month? 
I know it is Washington, D.C., and all, but just some time 
frame.
    Secretary Solis. Give me at least 10 working days.
    Mr. Rokita. Thank you very much.
    The number-one focus of the administration, according to 
the President, is jobs. I know you are a fan of card check. It 
doesn't appear--and I stand to be corrected, but it doesn't 
appear card check is going to get through this Congress.
    What is your position on card check? Do you intend to 
implement elements of card check through the administration or 
through regulation?
    Secretary Solis. I don't have the authority to do that 
through regulation. And, as it stands, my priorities are to, 
again, look at job creation and worker safety and protection in 
the workplace.
    Mr. Rokita. Okay. Thank you.
    You mentioned that we need new mining regulations, when you 
testified, because people have died, unfortunately. From that, 
can I assume that MSHA enforced the current law perfectly and 
that no mining interests violated the current law, therefore 
needing new law?
    Secretary Solis. I would tell you that what we found is 
that there has been a history where there are operators who 
have been able to game the system because of the way that the 
violations are set up, that they can be contested. And so there 
tends to be a backlog of those contested violations, where we 
can't really move forward. We don't have all the tools that we 
need in place to actually come down and say, ``Wait, stop, 
halt,'' and really have, I think, the support that we need from 
the operator at that time.
    So that is why we need additional legislation, additional 
tools, so that we do understand and that we work with industry 
on this. There are a lot of good actors who want to see 
improvements.
    And, certainly, my agenda is not to put people out of 
business. I understand how important the coal-mining and the 
mining industry is to this country. But we also want to make 
sure that people, at the end of the day, can go home after 
their shift, and hopefully that we have compliance by those 
miners. And that is what we are attempting to do.
    And our program agenda really is to go out and start to 
talk to people. MSHA, in the past, I didn't think really did a 
good job of working with the operators on both sides, the coal 
and the metal mines. And that is something that is equally 
important to us, as well.
    So I would urge my Assistant Secretary--I mean, it is not a 
problem. We will make available time to see you and talk with 
you and to answer any further questions that you might have.
    Mr. Rokita. That wasn't my last question, but thank you. I 
am out of time.
    Chairman Kline. The gentleman's time has expired.
    Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Chairman Kline and Ranking Member 
Miller.
    In this economic climate, it is imperative that our Nation 
create jobs, protect the rights of American workers, and 
prepare youth and adults for family-sustaining jobs. I am very 
pleased that we have Secretary Hilda Solis before us, that we 
can address some of the critical issues that concern me.
    Let the record show that I am very concerned and very 
disappointed that the Republican-proposed budget for the 
continuing resolution contains over $3 billion of cuts that 
zeros out our State and local workforce development system.
    Madam Secretary, in your testimony, you mentioned the need 
to reauthorize WIA. Can you elaborate on why we should update 
the WIA that we reauthorized back in 1998 and should have been 
reauthorized 6 years later?
    We must move forward to improve our Nation's youth work 
development and adult education system in the 112th Congress. 
And I ask you to tell us and elaborate on why we should do it 
and how you recommend that we do it as expeditiously as 
possible.
    Secretary Solis. Thank you, Congressman Hinojosa.
    It is a pleasure to be working with you again. I know, last 
year, we had many discussions on the reauthorization of WIA, 
and I hope that this committee will be able to work together in 
a bipartisan effort, as the Senate has. They have been working 
on legislation this past year. Our staff has been able to 
provide technical assistance to both Senator Murray, Senator 
Harkin, as well as Senator Isakson, and all those who are 
interested in this discussion.
    I would hope that the urgency of looking at how we can make 
this program more effective is a priority for the Department of 
Labor. So we are ready and immediately available to help 
provide whatever technical assistance to both sides of the 
aisle so that we can get at resolving some of the problems and 
the hearsay that you hear about duplication of programs.
    We realize this program hasn't been reauthorized for some 8 
to 10 years. Now is the time to act, now is the time to work on 
a bipartisan level so that we can very much target and be more 
effective and strategic and streamlined and get to those 
industries that need workers right away.
    So the urgency is now, is to have this done. And I look 
forward to your leadership. I know you have been involved with 
this for a long time.
    And with respect to safety and protection of workers, you 
and I know that, on an average, about 12 Latino workers lose 
their life every week--every week. And a majority of that is in 
the construction industry. That is why our department of OSHA, 
as well as Wage and Hour, held a summit in Texas, where we drew 
about a thousand individuals--business community folks, 
employees, employers, faith-based groups--to talk about how we 
could provide protections in that vulnerable population.
    Since that time, we have seen more participation on the 
part of industry. And we hope to provide more assistance to 
them through our compliance programs and some of our other 
efforts that we offer through OSHA, as well as through Wage and 
Hour.
    Mr. Hinojosa. Going back to the first part of my question, 
on WIA, I understand that the administration and you, as our 
Secretary of Labor, have thought out of the box and are talking 
about helping us think regionally instead of just the small 
area.
    As an example, where I come from in deep south Texas, we 
have a workforce group in McAllen working with the county next 
to it, in Starr County. But the regionalization that you all 
talk about is one that is much broader, that possibly brings 
two Members of Congress, or three or more, to work together so 
that we can train individuals and help them get to where the 
job is--engineering, science, technology, all those jobs.
    Tell us how you envision that this type of regionalization 
that you mentioned in one of my talks with you could be done 
and put into WIA.
    Secretary Solis. Well, I think that what we are really 
looking at here is bringing together a better partnership that 
really is driven by the business community and what is being 
offered and what is available in that particular region.
    So, as an example, in Detroit or Michigan, where you have a 
large number of people who have been dislocated because the 
automobile industry is no longer there, many of those skill 
sets that are there from those dislocated workers can be 
retooled and looking towards renewable energy, solar panel 
installation, or lithium battery manufacturing. We are already 
finding that that is happening in places around the country.
    So we are looking to see what is generated from the region. 
And if we can get States to partner, that is a great idea. We 
are looking at funding----
    Mr. Hinojosa. Forgive me for interrupting you, because my 
time is up. Can we work with the community colleges and 
universities and the business community to maybe go after large 
amounts of money that could help us train and put them into 
those good-paying jobs?
    Chairman Kline. Can I ask that the Secretary respond for 
the record? The gentleman's time has expired.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    Chairman Kline. Mrs. Noem?
    Mrs. Noem. Thank you, Mr. Chairman.
    And thank you, Madam Secretary, for being here.
    I know the chairman has covered a topic that I had a 
question about, so I would just like to make a comment on that. 
And if you have something to add, you certainly could, but then 
I would like to follow up with another question.
    So, you know, the President's budget has been in the 
headlines over the past several days. And from what I have 
found, comparing it to previous years' budgets, the Department 
of Labor's enforcement agencies are certainly--the majority, or 
the vast majority of them are receiving increases, some of them 
quite large, except for one, which is the Office of Labor-
Management Standards, which you know receives unions.
    For example, the Wage and Hour's total budget is increasing 
from fiscal year 2010 to fiscal year 2012 by 15.5 percent. The 
OFCCP's budget will increase by 3.8 percent. And then also, 
when you go to the EBSA's, theirs will increase 26.4 percent. 
However, OLMS's budget will decrease by 8 percent.
    So this is concerning to me because the OLMS has remained 
the same while the number of staff in the division has 
declined. And I would like to you elaborate a little bit on 
that, on why this divergence in enforcement funding 
specifically just for this one area that oversees--and then I 
would like to follow up with a different question.
    Secretary Solis. Well, I would just reflect that our 
budget, actually, for the Department of Labor is a reduction of 
about 5 percent. The President did ask for all of us to look 
within, where we could get rid of programs or remove them from 
our authority.
    And one that I would just want to talk to you briefly about 
really has to do with taking funds from the current, existing 
job-training programs and putting up a new effort, what we are 
calling an innovation fund, where we can look to experiment and 
audit and evaluate where we have inconsistencies and where we 
can make our programs that are doing green jobs, youth build 
programs, Job Corps programs, dislocated worker programs, to 
really do some more finite evaluation of that.
    That is going to be an evaluation tool, and we are doing it 
also in partnership with the Department of Education. So that 
is a new thing that is happening. It is not new moneys, 
necessarily, but it is taking from other pools and directing 
them.
    With the OLMS, I would say again, restate for the record 
that it is the level playing field again. We are looking at the 
same level of funding, but we are actually asking them to be 
more strategic in terms of their auditing, their investigations 
and convictions. And a lot of that, as I have already 
testified, has gone up. So we are going after the bad actors, 
and we are doing our best to go into elections where we see 
that there are improprieties, as well.
    Mrs. Noem. Could I follow up with you on that? Per the 
levels of funding for these enforcement agencies, was that per 
your request to the President, at the levels that you 
specifically would like to see them at?
    Secretary Solis. I would say to you that all of us are 
looking at, in particular, how we can become more efficient, 
become also very consciously aware that we have to address the 
deficit. So all of us had to make some changes.
    And there are some programs that will no longer be under--
one program, in particular, that deals with--a senior 
employment program that will be sent over to the Department of 
Aging in HHS, where it is more appropriately housed, so people 
that need additional help, counseling and things, can be 
offered that assistance. That program is going away, and that 
is a significant amount.
    Mrs. Noem. Okay. Thank you.
    On a separate issue, I have just a quick question. 
President Obama also issued a memorandum on January 18th of 
this year, noting his intent to eliminate excessive and 
unjustified regulatory burdens on businesses. So, on the same 
day, your department issued a new rule that some small 
businesses noted extremely burdensome by artificially 
increasing the wages of H2B workers without regard to economic 
reality. So, seasonal industries of all kinds throughout this 
country have sent a letter to the President, noting the rule's 
departure from that commitment and raising their concerns.
    I would like you to comment on that, specifically if you 
recognize that letter has been sent and what your opinion would 
be as to this burdensome----
    Secretary Solis. Well, we were also attempting to address a 
lawsuit that was brought against the Department of Labor for 
holding up these regs, in particular those salaries. So we are 
moving ahead. We know that--we are not going to be making those 
changes this year. We have actually put them off.
    Mrs. Noem. Okay. Thank you. Thank you for your answer.
    Mr. Chairman, I yield back the balance of my time.
    Chairman Kline. I thank the gentlelady.
    Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    Madam Secretary, nice to have you with us. I appreciated 
having you as a colleague, and I am proud of the job that you 
are doing in your new position.
    I particularly had the pleasure of working with you on 
authoring the Green Jobs Act and enacting that, as well. And we 
were both pleased, I think, when the Recovery Act put in $750 
million for competitive grants for high-growth industries, 
training and job work there. Five hundred million dollars of 
that, of course, was targeted to the Green Jobs Act.
    Now, you told me, or your staff, I guess, told our staff, 
that when the solicitations for grant applications went out on 
the green jobs, it actually received between double and triple 
the response compared to solicitations of a similar size.
    Secretary Solis. Uh-huh.
    Mr. Tierney. I see that reflected in my district alone, 
where the interest was very, very high on that.
    And I know some, you know, want to eliminate it altogether, 
you know, think that not enough people have gone to work quick 
enough. Apparently they wanted 1 day's training and a job the 
second day.
    But I wondered if you would go into a little bit of detail, 
tell us what the facts are on that and the success of that 
program.
    Secretary Solis. Well, I want to congratulate you, 
Congressman, for spearheading that legislation, as well. We 
worked very closely with this committee and with, I know, 
Congressman Miller on that, as well. And that was signed by a 
Republican President, George Bush, in 2007.
    Mr. Tierney. Amazing.
    Secretary Solis. I could see that the fruits of our 
investment are paying off. And, in fact, I think, because we 
have taken that bold step, that the industry is responding, and 
they are actually telling us that they would like to have more 
individuals that are fully skilled and trained; therefore, the 
need to continue this effort.
    I was reading in the National Journal, there was a study by 
the Pew Charitable Trust that, even going back as far as 2007, 
there were already 770,000 jobs created in the clean energy 
industry and more than 68,000 businesses that are going in that 
direction.
    In my State of California, the employment development 
department also said just recently that a million jobs were 
created in the clean energy sector. And this is positive, 
because I think that is a motivator for more people, businesses 
and community colleges, as well as our partners, to utilize our 
programs.
    Given the fact that we are going to have some moneys 
available through the TAA program and the community colleges, 
that is another way of helping to expand our effort and our 
reach, so that we really do home in on what the smaller 
industries--particularly, I am concerned about the small 
business, that they also have an appropriate level of trained 
individuals.
    We have some people here that are representing our Job 
Corps program from Woodland. Every Job Corps program since I 
started as Secretary has to provide curriculum on green jobs, 
so they are also getting a dose of that training and exposure. 
Some of them have already been given job offers, in some cases.
    But, nonetheless, it is something that it is, I find, very 
refreshing for people to hear, that they can make the 
transition from, say, a welding job to now someone who has, 
with additional training, got into welding and providing 
support for a wind turbine. And up in your part of the country, 
that is a big demand, and that industry continues to grow.
    And we are being outcompeted, quite frankly, by our friends 
in China and other countries. So we need to have a capable 
workforce. Business needs to know that they can rely on a 
trained workforce, so they can make that account in their 
budget and make it possible.
    Mr. Tierney. I suspect it is not different in other 
districts. In my district, the biggest champions of the 
Workforce Investment Act and boards are employers, businesses 
in particular, small businesses who participate in that.
    I am struck by the recklessness of an effort to cut $3 
billion out of our job-training program, just what that would 
do to devastate the One-Stop shops, what it would do for youth 
worker programs, some 250,000 youth affected by that. You are 
talking about young people getting an opportunity; that is gone 
if we take this kind of reckless action on that. It just goes 
on and on.
    But, you know, tell me about an individual whom I met in my 
district, a 58-year-old gentleman who lost his job--first time 
he has been unemployed for an extensive period of time. First, 
he held on, thinking he was going to get the same job back. 
Then it became clear that is not going to happen. Now he is 
getting some education and training so he can get back into the 
workforce. Found out he had prostate cancer, dealt with that.
    You know, if we take $3 billion out and decimate the 
workforce investment boards and all of that, where does a 
fellow like that go to get his life started again, to build 
back his ability to sustain his family?
    Secretary Solis. It becomes very hard, especially when we 
still have 14 million people that are out of work, and more 
than half have been off of work for more than 6 months to close 
to a year. And many of them, quite frankly, half of them have 
just above a high school education. It is no longer acceptable 
just to have a high school education. You have to have more 
training certificates, and you also should have the ability, 
when made available, the ability to go to a community college.
    That is why the TAA program that we are rolling out is so 
important--the need to underscore that we want more people to 
get that certification, because that is the first thing I hear 
from the business community: ``Secretary, we don't have enough 
people that meet the needs of what I need in my particular 
business.'' And it is about having high-tech capability. It is 
about having people that have adaptable skills and understand 
how to be flexible, also, with respect to their training.
    And for the dislocated worker that you just described, it 
is very typical of what we are seeing across the country. And 
it is going to take more time, more training to get them up to 
speed, to get them ready and accessible for, say, a new place 
of employment.
    Mr. Tierney. Thank you.
    Chairman Kline. The gentleman's time has expired.
    Mr. Ross?
    Mr. Ross. Thank you, Mr. Chairman.
    Madam Secretary, one of the things that I have seen--and if 
you were responsible for this, I want to thank you--and that is 
a rescission of the MSDS, or the musculoskeletal disorders, 
provision last month. Because, to me, it creates not only an 
unduly burden on employers, but it also may give rise to other 
causes of actions--inside the ADA, in tort law. And, as you 
know, employers are strictly liable under workers' compensation 
laws, regardless of fault.
    And so, under the MSD, when a Log 300 is filed out and they 
have to report these repetitive trauma injuries or conditions, 
then they are essentially guilty until they can prove that 
there is no causal relationship. That was rescinded, but I 
think what is important is not so much that it was rescinded 
but that it took so long for OSHA to consult with the small-
business community.
    Are there other regulations that we can anticipate that 
might be of such egregious nature that are on the forefront of 
being promulgated?
    Secretary Solis. Congressman, what I would say is that we 
withdrew those two regs that you spoke about. One had to deal 
with noise, as well.
    What we are doing, as I said, is we are consulting with the 
small-business advocacy office there to make sure that we do a 
thorough analysis and we get all the comments that are 
necessary. And then at a time which is appropriate, those regs 
may come back or they may not. It depends, quite frankly, on 
what the staff that are looking at all the comments and the----
    Mr. Ross. But wouldn't you agree that there should be a 
closer representative between those impacted by the regulations 
and those----
    Secretary Solis. We absolutely need to hear from everybody, 
all the stakeholders, including those people that are injured.
    Mr. Ross. Would you agree that probably one of the best 
things that we can do to recover from this recessionary period 
that we have been in is to have the creation of sustainable 
private-sector jobs?
    Secretary Solis. I believe that we--we need to have 
partners with the private industry, with the business sector. 
And in all of our partnerships, regardless of what is said, we 
do partner with the business community. They have to be a part 
of our workforce investment funds and----
    Mr. Ross. But getting the private capital in the market to 
create jobs is a necessary function of a recovery, wouldn't you 
agree?
    Secretary Solis. Well, I would agree that what the 
President did last December to allow for tax breaks and credits 
for entrepreneurs, I hope, to begin to make that adjustment to 
hire people up will be an incentive. The tax credits that were 
given alone, I think, is one part of it, one part of the 
solution, but we definitely need to do more.
    Mr. Ross. Two years ago today, the President signed into 
law the stimulus package. And as we look back over the last 2 
years, we still have 9 percent unemployment. We have seen a 
greater creation of Federal jobs than we have seen in private-
sector jobs. It has not been, I think, the panacea that those 
who supported it at the time thought it would be.
    In your opinion, do you think that the stimulus plan has 
been a success or a failure?
    Secretary Solis. I think the Recovery Act money actually 
helped to prevent 3 million people from losing their job, where 
unemployment would have been much higher.
    If you recall, last October we had an unemployment rate 
above 10 percent. It has now dropped----
    Mr. Ross. To 9 percent.
    Secretary Solis [continuing]. To 9 percent. And what we 
have seen in the last year is that we have created 1.1 million 
private-sector jobs. I am not talking about public sector; I am 
talking about private sector.
    Mr. Ross. The public sector has----
    Secretary Solis. That is the first time that we saw an 
increase in private-sector jobs than we did in the last 2 and 3 
years, even before this President took office.
    Mr. Ross. You know, as a consumer, I am sure that you 
choose to buy that which you find to be the best product at the 
best price. In other words, competition does have its benefits 
to the consumer. And the more choices you have as a consumer, 
the better price and, I think, the better market you can have.
    When we look at project labor agreements, we are 
essentially shunning away a marketplace environment to allow 
for nonunion contractors to hire nonunion labor at a better 
price to be just as effective and, yet, save money.
    Wouldn't you agree that we need to revisit the project 
labor agreements and allow for a market wage, as opposed to a 
union wage, in the implementation of these contracts?
    Secretary Solis. Well, I would beg to differ with you. I 
think that many successful project labor agreements have been 
created and instituted by the private sector. In fact, Toyota 
has been one of those proponents of project labor agreements, 
as have other major industries, as well.
    What we are finding is that the costs are actually, in many 
cases, lower. You find agreements both with labor and 
management. They are able to come to agreement on what the 
timelines are and trying to minimize any labor disputes that 
might occur during the life of that contract.
    And, actually, that is something that I think helps to 
incentivize the local community to hire local, so that we can 
address that big issue of unemployment that you talked about.
    Mr. Ross. But it does favor union labor as opposed to 
nonunion labor, wouldn't you agree?
    Secretary Solis. I think that it isn't just labor. There 
are many opportunities for different segments of the community 
to be a part of that PLA.
    Mr. Ross. One last question. You spoke about the Employee 
Free Choice Act, and I agree with you, I don't think that that 
is something that can be implemented by way of regulatory rule. 
But, in your opinion, would you support the Employee Free 
Choice Act as----
    Secretary Solis. The President and I agree that collective 
bargaining should be a right. But whether or not there are 
votes to change that, currently I don't see that happening in 
at least the near future.
    Mr. Ross. I see my time is up.
    Chairman Kline. I thank the gentleman.
    Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman.
    Madam Secretary, it certainly was a pleasure to serve with 
you in this body, and it is a pleasure to see you at work in 
the Department.
    Let me touch quickly on four points.
    First of all, I wanted to applaud you and Assistant 
Secretary Oates for tying the WIA to public libraries. Public 
libraries are so important for people to get the job training 
and connect to jobs. And I would like to you keep us informed 
on how that effort is going.
    Secondly, you spoke to Ms. Biggert about her concern to get 
better investment information and education in your 
coordination with the Securities and Exchange Commission. I 
hope you will keep me informed, along with Ms. Biggert, on that 
issue.
    Secretary Solis. Certainly.
    Mr. Holt. With regard to OSHA, which, you know, 40 years 
ago, New Jersey Senator Pete Williams helped to enact OSHA. And 
I am just--I can't emphasize too strongly the importance that 
OSHA has. There are millions of Americans who have their arms, 
legs, eyesight, and even lives--and they don't know who they 
are--they have those because of OSHA, but they don't know that 
those were saved because of OSHA.
    You know I have been a big proponent of reinstituting the 
Office of Technology Assessment, this important congressional 
agency. Before OTA was defunded, it did a review of OSHA, quite 
a detailed review. And it came out with quite positive 
conclusions about the effectiveness of it, about the 
methodology and analytical priorities, and even about the cost 
burden that OSHA imposes.
    I think it is time for an update on this, whether it is 
done through the GAO or otherwise. I would like to talk with 
you about how we might update that. Because I am sure the 
results will be useful in actually making the case for how 
important OSHA is to keep going.
    And then, fourth, I just wanted to mention the legislation 
that Representative Petri and I introduced in this Congress, 
the Lifetime Income Disclosure Act, which will help workers 
prepare for retirement by providing them with information about 
how their savings will address their monthly living expenses on 
into retirement.
    And I know, last year, the Departments of Labor and 
Treasury held a well-publicized request for information on 
lifetime income. And I think this is a good way to go, and I 
wanted to ask you how Congress should be working with the 
Department on this issue.
    Secretary Solis. Well, your last question, Congressman--we 
are very interested in working with you. We know that there are 
different populations that are affected with respect to how 
they save and what information they get or they don't get. And, 
typically, a widow, for example, may have had a work situation 
where she may not have had 20 or 30 years in the workplace 
because she had to take care of her family and now finds 
herself in a situation where she doesn't have adequate 
retirement funds that she should have known earlier to set 
aside in some way. And there are tools to do that.
    So, through our offices of EBSA, Phyllis Borzi, I believe, 
has done a really great job in making sure that we provide as 
much information, as much transparency and options, so that 
individual, consumers can make better decisions about what they 
want.
    Typically, in some cases, when someone retires and they 
want to tap into that fund, it may not be wise to get a lump 
sum at one time. They may need to have it staggered. As you 
know, that is a very important part of managing one's budget in 
that particular situation, when people are living off that one 
last amount of funds that is going to keep them going for a few 
years.
    So it is so deeply important, and it is something that we 
care very much about. We want to work with you on that.
    With respect to OSHA, as you know, if OSHA wasn't in place, 
I think we would have a much higher rate of injury. And because 
of OSHA and the passage back in 1970--and they are going to be 
celebrating their 40th anniversary, as well--we have been able 
to see reductions of 65 percent in occupational injury and 
illness. And that has been a tremendous factor that has helped 
keep people on the job, keep them safe, and to also minimize 
disturbances that might have occurred with their employer, 
bankruptcy or what have you, because someone was injured or 
someone was killed.
    Mr. Holt. Thank you.
    Chairman Kline. I thank the gentleman. The gentleman's time 
has expired.
    Let me note, the Secretary and I talked before the hearing 
about what time we would wrap up. It looks to me like we have 
about 15 or 20 minutes more of questions, which would take us 
to about 12:15. Is that all right? Something like that?
    Okay, thank you very much.
    Mr. Thompson, you are recognized.
    Mr. Thompson. Thank you, Mr. Chairman.
    Madam Secretary, thanks for coming today, for your 
testimony and your response to questions.
    It is probably appropriate--I represent Punxsutawney, 
Pennsylvania--because I feel like I am caught up somewhat in 
the movie ``Groundhog Day.'' It was about a year ago, February 
2010, you were here, and we had a discussion about project 
labor agreements. And I had mentioned a new construction 
project for a Job Corps center in Manchester, New Hampshire, 
that was subject to the PLA. And then, mysteriously, Department 
of Labor canceled the solicitation for bids in November of 
2009.
    I also drew a comparison between that project labor 
agreement that was imposed on a contract in my home State of 
Pennsylvania, when Governor Rendell required a PLA for Rockview 
State Prison. Yet again, no one bid, and the project was put on 
hold.
    The Obama administration contends that PLAs control cost 
factors, and the President put forth an Executive order 
encouraging PLAs. However, in areas like New Hampshire and 
Pennsylvania, this removes about 85 percent of the eligible 
firms from bidding.
    Madam Secretary, I would rather not revisit the past, but 
last February our 5 minutes ran out before you actually 
answered my question. It was asked by then-Chairman Miller that 
you would follow up in writing, and, well, we are still 
waiting. That is the ``Groundhog Day'' part.
    So I want to come back to that question from a year ago. 
Why was the New Hampshire project put on hold?
    And, secondly, since there have been PLAs successfully 
challenged in other cases, most recently in Pennsylvania, a VA 
center in the Pittsburgh area last December, has the 
administration begun to reconsider Executive Order 135022?
    Secretary Solis. Well, Congressman, I would just say to you 
again that we believe that PLAs actually help to bring down the 
costs and provide conformity.
    With respect to withdrawing the Job Corps New Hampshire, 
that bid is actually--we wanted to take more comments. We felt 
that we didn't do a sufficient job in making sure that we had 
actually provided more opportunity for people to make comments 
and to be a part of that process. So we realized----
    Mr. Thompson. Was there any implication----
    Secretary Solis [continuing]. That we had to bring that 
back.
    Mr. Thompson. Was there a similar experience at all in 
Pennsylvania, where, frankly, I mean, 85 percent of the 
eligible companies in Pennsylvania--I know that is a State 
project, but it was a PLA--chose not to bid. It really 
excluded, frankly, all of the workforce. I think, in central 
Pennsylvania, companies 3 hours away that were totally union 
that would have bid. It drove the costs up, and even Governor 
Rendell saw the perils of that.
    Secretary Solis. Well, I can't really comment on what the 
State is doing because we don't----
    Mr. Thompson. Well, I know that. But I am asking, what are 
the experiences in New Hampshire with the Job Corps?
    Secretary Solis. I don't think--I can't go into detail 
because I don't know all the particulars about the State 
project.
    Mr. Thompson. Okay, well, if you wouldn't mind, we have 
been waiting a year. You know, an Under Secretary or someone, 
if you could have them, like, within 2 weeks get back to me. 
Because----
    Secretary Solis. Absolutely. I apologize.
    Mr. Thompson [continuing]. This is obviously very important 
to me.
    I had the opportunity--and one of the things I wanted to--
we have done some things on mine safety, obviously, in the 
111th Congress. And one of the things that I know that has been 
added--there was a Pittsburgh office that was opened for the 
Federal Mine Safety and Health Review Commission, you know, I 
think as part of the effort to address the backlog. And I think 
the cases were around 10,000, or something like that, in the 
backlog queue. And, frankly, I think there are some creative 
things going on there. They are trying to get retired judges. 
They have staffed up to about 20 judges is my understanding, 
and using some retired folks and some part-time.
    The issue of backlog at the Mine Safety and Health Review 
Commission certainly has been highlighted through those 
hearings, as I said. Do you believe that MSHA's pilot 
conference program is working to relieve that backlog at all?
    Secretary Solis. Well, we just started it. And I do believe 
that it is making a difference. And I had a discussion with our 
Assistant Secretary, Joe Main, about it just last week to find 
out how that is coming along, because I am very interested in 
finding out how we are able to prevent us from having to go out 
and cite different operators.
    So I believe the more we do that and we engage, we give 
people information up front--and I know that Joe has traveled 
all over the country to make sure that we reach out to the 
associations. And they have been very supportive, especially in 
the metal mines, in particular. They seem to be very receptive 
to this.
    So I am very open to seeing that happen, and I would love 
to have my Assistant Secretary stop by and see you and give you 
a preview of what we are doing and what our intent is.
    Mr. Thompson. Thank you.
    Secretary Solis. I will make sure we get back to you. Thank 
you.
    Mr. Thompson. Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentleman.
    Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman.
    Secretary, good to see you.
    I am sorry that I wasn't able to be here earlier, and you 
may have answered some part of this question, I think, in 
talking about veterans. I know recently you had an opportunity 
to visit Camp Pendleton and, certainly, to tout the Department 
of Labor's strategy of No Veteran Left Behind, and I greatly 
appreciate that.
    Could you elaborate a little bit more on how the Department 
of Labor could better work with the Department of Defense? 
Because we know that, no matter--I mean, there is quite an 
effort going on, and I appreciate the work that has been done 
and what you stated in your written statement here. Are there 
some disconnects there? How can we be more helpful? How can the 
Department of Defense, as well?
    The other issue that I think is really critical and, in 
speaking to a number of individuals on the boards and working 
within the community colleges, we have a number of schools that 
have veterans centers but very few, really, to meet the need.
    Does the Department of Labor play any role in that? And 
would there be a role there in trying to help facilitate so 
that our veterans at our community colleges, particularly, 
where the need is so critical, have the support system as well 
as the training supervision, mentoring that is required there?
    Secretary Solis. Thank you, Congresswoman Davis.
    We are working with the Department of Defense on a new 
effort to revitalize the Transition Assistance Program, known 
as TAP. I think you are aware of that. That program has been 
around for many, many years, but very little evaluation had 
been done in terms of the quality and the service that was 
provided.
    So my Assistant Secretary, Ray Jefferson, has been leading, 
for the last year and a half, on helping to revise and expand 
and make that program more meaningful, so that it isn't just 
dropping information but actually following up at every point, 
so that the veteran, whether they are still in the service 
waiting to exit or if they are already out of the system, that 
there is a way that they can continue to get information about 
careers, job training, and other assistance, mental health, 
other things that they might need, as well as their family. So 
military families are also a part of that component.
    And much of it is being funded, actually, out of Department 
of Defense, because our budget is very minimal, as you know, 
with respect to being able to roll out something that big. But 
they have bought into the idea that our office would help to 
provide supports to structure this new program.
    I am very excited about it, and I think you are going to be 
hearing more. And I would love to have my Assistant Secretary 
come by and see you.
    With respect to community colleges, without a doubt, we 
need to coordinate more our veterans programs that we have that 
are offered by the State. We actually provide funding that goes 
to the States, and they then hire up and place those 
individuals throughout the State, usually through our workforce 
investment programs, the WIA, or the One-Stop centers.
    They need to be collaborating with the community colleges. 
There is no reason why we shouldn't be targeting--and I believe 
through the TAA program, the new funding that is being offered 
to the community colleges. There could be an incentive, there 
could be a demonstration project out there somewhere that could 
use that funding to actually illustrate how important it is 
that those two can connect, the veteran that is coming back 
from war, the younger one that actually needs to have several 
things going on--counseling, mentoring, but also a rigorous 
curriculum that is going to help them make that transition. So 
if they want to go into a short-term job or get a certificate 
in 6 weeks, they can do it at a community college, or a 2-year 
program. So we want to make those seamless for them as best as 
possible.
    But I would love to have the opportunity to talk to you 
about that, as well as what we are doing with homeless women 
veterans in our initiative to really go out and meet the needs 
of these returning veterans. We are finding that there is a 
high rate--and you know this--of suicide amongst our young 
returning vets, as well as the fact that we are seeing many 
women who were in the war, serving in Iraq and Afghanistan, 
that are coming back, and you don't see that there are symptoms 
per se physically, but you are finding out after that they are 
not able to connect back home, to reintegrate. So we are very, 
very concerned about that aspect.
    And my Women's Bureau is working with our VETS department 
to see how we can better conjoin and work with other agencies 
to help provide that needed support for these women, in some 
cases who have children as well.
    Mrs. Davis. Uh-huh. I am really glad to hear that. Because 
I think one of the concerns that we have in the community is 
that there are a lot of efforts out there, but people don't 
necessarily know what is going on, you know, whether it is 
right, left, or center. I mean, people just don't understand 
the efforts that others are doing. So I think there is a key 
role, actually, for the Department of Labor.
    Secretary Solis. And, by the way, visiting Camp Pendleton, 
the Helmets to Hardhats program was, I think, very essential 
for many folks that are getting ready to exit the military. 
That happens to be the Marine base there. We are looking to 
expand those efforts, I know DOD is, in other major States like 
Washington and, I believe, maybe in Georgia, Lejeune, Fort 
Lejeune.
    Mrs. Davis. Great. Thank you.
    Thank you, Mr. Chairman.
    Chairman Kline. Thank you.
    Mr. Platts?
    Mr. Platts. Thank you, Mr. Chairman.
    Madam Secretary, good to see you.
    Secretary Solis. How are you?
    Mr. Platts. Always a pleasure when we served together and 
now in your new role--or, not new, but current role.
    I have, I guess, two areas of a comment and question, and 
they relate to the Office of Labor-Management Standards. And I 
share these comments or questions as a former union member, 
Teamster union, Local 430, as well as with many family members, 
retired union members or current.
    First is to associate my comments with the chairman and his 
concern about the budget, which shows, I would say, a lack of 
additional commitment to the Office of Labor-Management 
Standards in comparison to the Bureau of International Labor 
Affairs, which is getting about a 10 percent increase under the 
proposed budget. Yet, an office that has seen its personnel be 
cut by about 16 percent in recent years and is really the main 
enforcement office for unions properly disclosing how they are 
handling their union members' money--so, first, I associate 
myself with the chairman's comments and his concern. I share 
them, and think we should be better prioritizing protecting the 
labor affairs of American workers before we are increasing 
spending on labor elsewhere outside of this country and, 
specifically, the Bureau of International Labor Affairs.
    My specific question, I guess, is if you can share with me 
the logic--you know, the Office of Labor-Management Standards 
and the original law of the Labor Management Reporting and 
Disclosure Act of 1959 is really about openness and 
transparency, that union members know that their funds are 
being handled properly by their leadership--a very important 
law, now 50-plus years in the works. And there have been 
efforts in recent years to strengthen disclosure and greater 
transparency--improvements to the LM-2 form, the LM-30 form, a 
new requirement, the Form T-1, to really require more 
transparency.
    Instead of moving forward with that, what we have seen is 
this administration go backwards. My understanding is, as of 
October of 2009, the administration announced that they were 
rescinding the improvements to the LM-2 form. They announced 
also that they would not enforce the changes to the LM-30 form, 
and, just in December, published a final rule rescinding the 
Form T-1 completely.
    I guess I would like to know the logic behind lessening 
transparency if we really are serious about protecting union 
members and how their money is being handled.
    Secretary Solis. Thank you, Congressman Platts.
    I would say to you that what we have done is kept the level 
of funding consistent. So there really isn't a major increase, 
as you state. And I would just say that one of the things we 
are doing is also looking at technology----
    Mr. Platts. But, Madam Secretary, there is not a major 
increase for the Bureau of International Labor Affairs?
    Secretary Solis. When you asked me about OLMS, their level 
of funding is the same to what it was last year.
    Mr. Platts. Right. But if you look at where you are in 
several years total, your number of enforcement officers is 
down about 16 percent. So instead of trying to, you know, 
return some of those enforcement officers that go after misuse 
of union dollars, instead we are increasing funding for 
international labor.
    Secretary Solis. Well, I would say to you that we have 
actually been able to target--more of our improvements that we 
have seen is doing more auditing and actually having a higher 
rate of conviction and indictments.
    And I said earlier, I don't think you were here when I said 
it, but back in 2010 we actually started looking at election 
investigations. And we actually were able to ramp that up, in 
comparison to what happened between 2006 and 2009 before I took 
over.
    So I would say to you that we are being more targeted. We 
are using more transparency in terms of using the computer, 
actually, to be able to disclose information much more quickly. 
We don't have to have as much, how could I say, emphasis on 
getting a lot of paper when a lot of this can be posted and 
made available to members.
    And we certainly want to go after the bad actors. And I 
said earlier that we have some major convictions of folks that 
are in the labor movement that were not doing the right things, 
and many indictments that were made. So we are not going to 
move back on that at all.
    Mr. Platts. The effort to crack down and have those 
indictments I support, obviously. But I guess--there are two 
issues here, and one is transparency. Why rescind the 
regulations that were adopted to have more transparency? What 
was the decision behind the changes?
    Secretary Solis. Congressman, some of the information that 
we were already--that we were initially getting from other 
forms was duplicative. So we were trying to actually minimize 
the amount of information that wasn't necessarily needed. We 
are getting it to begin with, so we didn't need to have an 
additional paperwork requirement.
    So I think that is what we are trying to get at. It is not 
that we are excluding information. By all means, we are 
actually putting more information up so people can see it and 
that members can have that information and knowing fully that 
it is going to be available on the Internet.
    Mr. Platts. My time is up. I guess my request would be if 
you could submit to the committee the examples of duplication 
that were in the----
    Secretary Solis. Sure.
    Mr. Platts [continuing]. LM-2, the LM-30, and the T-1, what 
was duplicative that is now not necessary to be acquired, so 
that I better understand. Because it doesn't seem logical to 
me, and----
    Secretary Solis. I will have our director come and speak 
with you directly, as well, John Lund from OLMS.
    Thank you.
    Chairman Kline. I thank the gentleman. His time has 
expired.
    Mr. Kelly?
    Mr. Kelly. Thank you, Mr. Chairman.
    And, Madam Secretary, it is nice to be with you.
    I have a concern as a small-business person, myself, and 
understanding very much what wage taxes mean. In your 
testimony, you said, ``The Department is focused on jobs of the 
future. And we also understand that workers who are laid off 
cannot wait until the future to get a paycheck. We are doing 
everything we can to get workers into jobs quickly.''
    Also in the testimony, you said, there are 23 million 
unemployed workers right now who received $150 billion in 
unemployment insurance benefits in 2010, and that currently 
there are more than 6 million workers who have been unemployed 
for more than 26 weeks.
    My question is, how many of these recipients have been 
required to take job training under the Workforce Investment 
Act?
    Secretary Solis. Well, I would tell you that many of the 
programs that we do offer, in particular through our One-Stop 
centers, we do require, in some cases, for people to come in. 
Some States actually do that, where you have to come in if you 
are a recipient of UI and go through some of the training 
programs, get an assessment, and then find out exactly where it 
is you want to go.
    But what I think is important to underscore here is, the 
Unemployment Insurance Program is supposed to provide a safety 
net for people while they are transitioning and finding a job. 
Keep in mind, you still have almost five unemployed people per 
one job. And that isn't going to change as quickly as I would 
like, but we are working on it.
    In addition, that $1 of UI money that goes back to that 
recipient, $2 are generated to keep some of the local 
businesses' doors open. So the grocery store, the gas station 
attendant, the dry cleaners, people are also seeing that money 
then going back as kind of a short stimulus for areas that have 
been heavily impacted.
    Mr. Kelly. And I understand that. So, in December now, the 
President made unemployment benefits available for up to 99 
weeks. So do you support making enrollment in a job-training 
program mandatory for accepting unemployment insurance after a 
certain number of weeks?
    Secretary Solis. I am not sure that, at this time, I can 
say that I can do that. But certainly, working with the 
Congress and figuring out ways that we can incentivize people 
that are receiving UI or even those that may be shortly laid 
off, giving incentives so that the Federal Government can 
provide on-the-job training so we can consistently keep these 
people from being laid off--those are different activities that 
we offer now that many businesses are not taking advantage of.
    Mr. Kelly. Okay, well, I am going to encourage you. Because 
I have been involved in good investments and bad investments, 
but when we talk about the Workforce Investment Act, I think 
that the money we are spending, we deserve to have a positive 
return on that. And so I am going to encourage that people 
really get into looking into this. And, actually, if we are 
going to do this, we have to get people back to work. And I 
just don't think we are going in the right direction. I see a 
lot of money being spent, and we don't see a lot of jobs coming 
back to the forefront.
    Thank you.
    I yield back my time, Mr. Chairman.
    Chairman Kline. I thank the gentleman. He set the example 
at the very end of the hearing, but I appreciate it 
nevertheless.
    Mr. Miller, any closing remarks?
    Mr. Miller. Thank you.
    Just quickly, one, I want to thank the Secretary, and I 
want to thank her for her administration of this agency.
    But back on the discussion you had with Mr. Platts, I would 
hope that we would also have some transparency. I think the LM-
2, the LM-30s and the 20s, there really is an uneven level of 
bureaucracy required here. Certainly, one, it is a question of 
what the business consultants who do the anti-labor activities, 
whether they are even filling this out and complying with this. 
I am worried about that.
    I would say to my colleagues on the other side, if you put 
this level of regulation on a business, you would be screaming 
to high heaven. Well, you know, but to do this to labor, 
somehow that this is free. I don't think you should relish that 
would you create that kind of system that is so costly and so 
burdensome to these organizations.
    But I would be interested in the compliance rates and the 
disparities in terms of reporting requirements and liabilities 
in this also.
    But thank you very much for being before the committee 
today and for your responses.
    Secretary Solis. Thank you, Congressman Miller.
    Chairman Kline. I thank the gentleman.
    I want to take just a minute to address an issue that has 
been kicked around here several times. You know, Madam 
Secretary, that we are--in the last Congress, we didn't have a 
budget and we didn't pass any appropriations bills. And so we 
are in the business of working with continuing resolutions and 
trying to debate how we should allocate that money.
    The question came up, I think from the ranking member and 
others, about the VETS, V-E-T-S, program and One-Stop shops. So 
I just wanted to point out a couple of things about that.
    One, it was mentioned by a number of my colleagues that we 
have in this job-training business, you know, 9 agencies 
spending $18 billion for 47 different job-training programs. 
And then Mr. Miller and I have had this discussion a number of 
times about how we need to address WIA and make this simpler 
and, clearly, less wasteful.
    But the question was raised about whether or not One-Stop 
shops would have to shut down on April 1st or something like 
that. Certainly, I don't have the definitive answer here, 
except, clearly, there is money, there is $550 million in 
carryover balances that are unexpended and unobligated for the 
One-Stop system from 2010. There is another $1.1 billion in 
unexpended dollars left from that program that is carryover 
money. So I don't think we are looking at an April 1st 
shutdown.
    I know that your department will be looking at that. And I 
am not purporting to give a definitive answer here. I am simply 
saying that there is carryover money here, there is often 
unexpended money. And it is somewhat of an indictment of a very 
confusing system that this committee and this Congress and, 
certainly, the Department are going to have to address.
    I want to thank you, Madam Secretary, for coming, for your 
testimony, for your very straightforward answers to our 
questions.
    If there is no other business, the committee now stands 
adjourned.
    Secretary Solis. Thank you, Mr. Chairman. I appreciate the 
opportunity.
    [Responses by Secretary Solis to questions submitted 
follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [The study, ``Project Labor Agreements,'' 2007, may be 
accessed at the following Internet address:]

  http://www.buildingtrades.org/BCTD/media/Documents/Field%20Services/
                        PLA/NECA-PLA-Report.pdf

                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Whereupon, at 12:20 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
